  U.S. Department of Education
Office of Inspector General




 Semiannual Report
   to Congress
                No. 34

     October 1, 1996 – March 31, 1997
                                                                    April 30, 1997

Honorable Richard W. Riley
Secretary of Education
Washington, DC 20202

Dear Mr. Secretary:

I am pleased to submit this semiannual report on the activities of the Department's Office of Inspector General (OIG) for
the six-month period ending March 31, 1997. Submission of this report is in accordance with section 5 of the Inspector
General Act of 1978 (Public Law 95-452, as amended). The act requires that you transmit this report, along with any
comments you may wish to make, to the appropriate congressional committees and subcommittees.

This period, the OIG continued to fulfill its statutory mandate through a carefully designed program of audits and reviews
intended to help Education Department (ED) managers administer their programs and carry out their oversight
responsibilities more efficiently, nore effectively and more economically. Our efforts have produced reports and
prosecutive actions that have brought important issues to the attention of ED managers and recommended ways to resolve
them or to prevent their recurrence.
I look forward to continuing to work with you and Department managers as we seek to ensure the efficiency, effectiveness
and integrity of Education Department programs and operations.


                                              Sincerely,




                                              Thomas R. Bloom
                                              Inspector General's
                                          Message to Congress

The Office of Inspector General (OIG) has continued to meet the challenge to remain effective by finding more innovative
ways to deploy our resources and conduct our audit, investigation and management review efforts. One key shift in
emphasis and approach has been to focus our efforts on program and operations issues and systemic problems that are
larger in scope than the traditional single-entity focus. This front-end work will lead to more effective programs with built-
in controls and self-enforcing mechanisms to prevent fraud, waste and abuse by all participants, rather than rely on "after-
the-fact" detection at those few participants we have the opportunity to review.

These carefully focused, yet at the same time more broadly encompassing efforts have already begun to bear fruit. Audits
issued during the reporting period have, for example, identified problems in controls over the student eligibility process,
and recommended improvements which we believe could greatly reduce Pell Grant overawards; and found that accrediting
agencies could strengthen their role as gatekeepers of the student financial assistance programs if their on-site monitoring
of member institutions was improved. In the investigative arena, we are focusing about eighty-five percent of our efforts
on complex investigations of institutions, including postsecondary schools, lenders, guaranty agencies and servicers. Such
efforts are more complex and more high-profile than investigations of individual student recipients. They also tend to gen-
erate more publicity, which in turn helps deter fraud. Through management reviews, we are focusing on identifying
administrative operations' work processes in need of improvement and generating possible solutions.

In the continuing pursuit of programmatic and operational economy, efficiency and effectiveness, the OIG is but one link,
if a critical one, in a chain that includes Education Department (ED) managers, the Congress, and participants in ED
programs. We look forward to continuing to work with the Congress and the Department to foster ever greater financial
and systemic improvements in federally funded education programs.




                                               Thomas R. Bloom
                                                                           CONTENTS

< Inspector General's Message to Congress

< Executive Summary . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1

< P.L. 95-452 Reporting Requirements . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 7

< ABSTRACT 1:                  Significant Audits and Audit-related Activities . . . . . . . . . . . . . . . . . . . . 8

< ABSTRACT 2:                  Significant Prosecutive Actions Resulting
                                        from OIG Investigations . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 21

< ABSTRACT 3: Initiatives Conducted in Response to
                                              Congressional Request . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 33

< Statistical Tables
   <         Recommendations Described in Previous Semiannual Reports on Which
                   Corrective Action Has Not Been Completed . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 34

   <         ED/OIG Reports on Education Department Programs and Activities . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 36

   <         Inspector General Issued Reports with Questioned Costs . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 38

   <         Inspector General Issued Reports with Recommendations for
                      Better Use of Funds . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 39

   <         Unresolved Reports Issued Prior to October 1, 1996 . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 40

   <         Statistical Summary . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 42


< Glossary of Abbreviations . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 43
                                 Executive Summary:
                    Significant Activities and Accomplishments

This period, the Office of Inspector General (OIG) continued to meet its responsibilities by conducting
audits and reviews that add value by recommending improvements to Education Department (ED)
programs and operations. We also provided advice and assistance to ED managers which we believe will
help them in administering their programs and in carrying out their oversight responsibilities. Highlights
of our efforts follow.



                                POSTSECONDARY EDUCATION

We have continued our efforts to assess system controls to assure that only eligible students obtain student
financial assistance and to evaluate management controls. Among our audit efforts in the postsecondary
education arena were an audit that identified $109 million of overawarded Pell grants, a study of the impact
of "ability-to-benefit" students on student loan-default and graduation rates, and a series of audits of schools
participating in the Direct Loan program. Our investigative efforts have continued to identity individuals,
including institutional officials, who have perpetrated a variety of schemes enabling them to fraudulently
obtain student financial assistance (SFA) funds. Highlights of these efforts follow.

IRS/VA match identifies $109 million                        to be veterans, resulting in $1.9 million in Pell
in Pell overawards                                          overawards (see Abstract 1, “Significant Audits
                                                            and Audit-Related Activities”).
This period we issued an audit report which
disclosed that approximately $109 million in Pell
                                                            Enrollment of ATB students
grants had been overawarded because students
failed to report or underreported their income.             We completed a study on the impact which the
We recommended that the Department be                       enrollment of ability-to-benefit (ATB) students
permitted to verify with the Internal Revenue               has on the student loan-default and graduation
Service (IRS) the income reported by students on            rates for a sample of proprietary and vocational
the Free Application for Student Aid (FAFSA)                schools. We found that the default rate for
and verify the reported veterans status with the            students attending schools that admit ATB stu-
Veterans Administration. These two elements                 dents was twice that of students who attended
are critical in calculating the expected family             schools that did not admit ATB students. In
contribution needed to compute and award                    addition, the student-loan default rate increased
student aid.                                                significantly once the percentage of ATB students
                                                            exceeded 20 percent of enrollment. The
Based upon our match with IRS returns of                    graduation rate for ATB students, meanwhile,
FAFSAs for over two million students who were               was only 53 percent, compared with 69 percent
awarded Pell grants, we found that for award                for non-ATB students.
year 1995-96, at least 102,000 students were
overawarded approximately $109 million in Pell              Based on the data obtained from our study, we
grants because they failed to report or                     concluded that schools that admit ATB stu-
underreported their income. In addition, we                 dents placed SFA funds at a higher risk than
found that 1,200 Pell recipients falsely claimed            schools that did not admit ATB students. We
defined risk as the likelihood that a student will           problems with accurate loan records and rec-
drop out before graduation and/or default on an              onciliation problems. Our summary report will be
SFA loan.                                                    issued in the next reporting period.
We suggested that the Congress and the De-
partment consider statutory changes to further               Other SFA-entity audits
reduce the percentage, or eliminate ATB students             Our audits found that guaranty agencies im-
from a school's enrollment count for purposes of             properly retained or had not refunded over $6
participation in SFA programs. We also                       million relating to overcharges to the Federal
suggested other alternatives to safe-guard the               Family Education Loan program (FFELP) for
SFA funds if the ATB percentages remain                      operational costs of state programs, excess
constant, such as limiting the amount of SFA                 collection costs as a result of federal consoli-
funds given to schools that admit high                       dation loan payoffs, and unpaid advances due the
percentages of ATB students. (See Abstract 1,                Department. In addition, auditors found over
“Significant Audits and Audit-Related Activi-                $11 million in questioned and unsupported costs
ties”.)                                                      relating to lack of compliance with applicable
                                                             federal requirements for administering SFA
Direct Loan school audits                                    program funds.

This period we completed 14 Direct Loan pro-                 We recommended that these amounts be re-
gram school reviews as part of our National                  covered or returned to the program for use in
Direct Loan Schools Audit. We issued individual              furthering the Title IV programs. These audits
reports on each school identifying issues such as            are being resolved by the Department (see
student status reporting deficiencies,                       Abstract 1, “Significant Audits and Audit-
                                                             Related Activities”).


Investigative efforts
We are now focusing about eighty-five percent of our investigative efforts on complex investigations,
mainly involving institutions, including postsecondary schools, lenders, guaranty agencies and servicers.
We are also continuing to devote some resources to investigating the most egregious allegations involving
individuals who have engaged in complex schemes to defraud the SFA programs.

Embezzlement of SFA funds by                                 In another case, the accounting manager and vice
school officials                                             president for business affairs at Ogalala Lakota
                                                             College, Rapid City, South Dakota, was charged,
OIG investigations have developed evidence that
                                                             along with four other individuals, in a 125-count
has led to the indictment of proprietary-school
                                                             indictment after investigators found evidence that
owners and officials who used their positions to
                                                             a total of $2.6 million dollars in federal funds had
defraud the Department's SFA programs. This
                                                             been embezzled from the school.
period, a federal grand jury returned a 15-count
indictment against the owner of Revell Training
                                                             False claims of medical-school
Center, Chicago and Melrose Park, Illinois, and
the center's operations manager, alleging a                  attendance
scheme to defraud the Department of Education                In the last several years, OIG investigations have
and banks of approximately $936,000.                         resulted in the federal prosecution of individuals
Investigators found evidence that the two                    who defrauded the Federal Family Education
officials caused student loan checks to be issued            Loan Program (FFELP) by claiming to have
for ineligible students, retained and negotiated             attended foreign medical schools. In the Eastern
the checks, and used the money for improper                  District of New York, one individual was found
purposes.                                                    guilty of filing 27 falsified FFELP applications
                                                             using 14 identities for claimed attendance at


                                                     < 2 =
medical schools in the Philippines (Semiannual                cial Security numbers), prior student loan in-
Report No. 29, page 27; and No. 30, page 35).                 debtedness, and foreign-school enrollment status.
In another case, an individual pled guilty in the             We are continuing our efforts to identify and
Southern District of New York to fraud in                     investigate FFELP borrowers who have received
connection with the submission of FFELP                       funds by falsely claiming foreign school
applications for claimed attendance at various                enrollment, and we have initiated a number of
Caribbean medical schools. This individual                    investigations targeting suspected individuals.
applied for approximately $1 million in loan                  Our efforts are concentrated on FFELP activi-ty
funds and actually received about $450,000                    at foreign medical schools, since we believe this
(Semiannual Report No. 30, pages 31-2; and No.                is a high-risk area and there is a potential for
31, page 23). In these cases, the subjects used               substantial loss in this area. More important, in
various guaranty agencies and made multiple                   the near future, we anticipate providing the
false statements regarding their identities (i.e.,            Department with our recommendations for
names and So                                                  corrective actions with respect to the abuses
                                                              identified by our investigations.

For a look at some of the most significant OIG investigative cases of the reporting period, see Appendix
3, "Significant Prosecutive Actions Resulting from OIG Investigations."



                                DEPARTMENTAL OPERATIONS

Our efforts during the period to assist ED managers in assuring the efficiency and effectiveness of
Department operations and programs were wide-ranging and significant in impact.

Financial statement audits
The Government Management Reform Act (GMRA) mandates the annual financial-statement audit
requirement to cover the operations of the entire agency, beginning with FY 1996. Education elected to
produce financial statements for FY 1995 at the Department level, one year ahead of the implementation
date set by the GMRA.

Audit of FY 1995 financial statements                         FFELP oversight of guaranty agencies and
                                                              lenders, and cash reconciliations.
As reported in our previous Semiannual Report
(No. 33, page 4), we contracted with an
independent public accounting firm to conduct                 Corrective action plan implemented
the audit of the consolidated financial statements.           Although management believes the FY 1995-
The independent accountants were unable to                    reported FFELP liabilities for loan guarantees are
express an opinion on the FY 1995 consolidated                reasonable, officials agreed with the need to
financial statements, primarily because certain               further improve FFELP data. Management is
amounts related to the FFELP could not be                     working with the guaranty agency community
supported by sufficient and reliable accounting               and its independent accountants to obtain reliable
information and because certain differences                   data from guaranty agencies for use in estimating
between reported amounts and underlying                       the FY 1996 FFELP liabilities for loan
accounting records could not be adequately                    guarantees.
explained. The audit revealed new material
weaknesses in internal controls in the areas of




                                                      < 3 =
Management’s goal is to have sufficient reliable            1997. The audit of the FY 1996 financial
data by May 1997 to support an opinion on the               statements is in process, with an anticipated
FY 1996 financial statements in August                      reporting date of August 1997.


EDCAPS system security
This period, we provided ED's Central Automated Processing System (EDCAPS) development team with
an independent assessment of security over its UNIX operating system and Oracle database management
system. We provided the team with recommendations that should aid in the development of the EDCAPS
processing system and mitigate the security exposures we identified (see Abstract 1, “Significant Audits
and Audit-Related Activities”).


Government Performance and Results Act (GPRA)
The Department's strategic plan, a working document, was completed in 1994 and the OIG was involved
in developing that plan. We also participated on a Department team that reviewed each office's strategic
plan. The Department is currently revising its strategic plan, which will be completed later this fiscal year.
The Department has completed draft performance measures for 17 programs and has submitted those draft
plans to Congress for consultation. We plan to review ED's implementation of GPRA, which will include
review of program performance measures and evaluation of the data-collection and reporting systems and
data validity.


Management reviews
As noted in our previous semiannual report (Semiannual Report No. 33, page 4), we have begun working
in partnership with ED managers, conducting management reviews aimed at identifying opportunities to
improve work processes and to correct systemic problems. To date, our work with the Office of
Management and the Office of the Chief Information Officer has resulted in actions to improve
telecommunications services, motor-pool operations, computer-equipment acquisitions and inventories,
and property-pass procedures.



                                        REAUTHORIZATION

Reauthorization           of     the     Higher             Reauthorization of the Elementary and
Education                                                   Secondary Education Act
Act of 1998                                                 We initiated a series of audits and reviews this
This period, we initiated a number of reviews to            period designed to assist ED managers and
support OIG proposals for the reauthorization of            Congress in the reauthorization of the Elementary
the Higher Education Act of 1998. Our proposals             and Secondary Education Act (ESEA) in 1999.
will be sent to the Department and appropriate              Areas covered in our audits and re-views include
congressional committees to assist in the                   Bilingual Education, Schoolwide Programs, Safe
reauthorization hearings. We also participated in           and Drug-Free Schools, and the Title XIV
work groups with the Office of Postsecondary                flexibility provisions (e.g., consolidated
Education to discuss areas in need of legislative           applications, consolidated administrative funds,
attention.                                                  waivers, etc.)




                                                    < 4 =
Reauthorization of the                                       semiannual period, we plan to issue reports
Rehabilitation Act                                           covering factors that contributed to one state’s
                                                             high rate of successful case closures, and the
This period, the OIG continued work on a series
                                                             reasonableness of the allocation formula. As part
of audits designed to assist the Department and
                                                             of our work on reauthorization, we will be
Congress in the upcoming reauthorization of the
                                                             issuing a composite report summarizing the
Rehabilitation Act. During the next
                                                             results of our work.



                                CONGRESSIONAL TESTIMONY

Department of Education management                           tions of the delivery systems; and inadequate
and programmatic issues                                      gatekeeping, monitoring and oversight of pro-
                                                             gram participants. The Inspector General also
The Inspector General testified this period before
                                                             stressed the need for measurable performance
the House Subcommittee on Human Resources,
                                                             standards.
Committee on Government Reform and
Oversight, about the high-risk areas facing the
                                                             Reauthorization of the Individuals with
Department. Focusing on the SFA programs, the
Inspector General told the subcommittee that one             Disabilities Education Act
of the most significant problems facing the                  At the request of the House Subcommittee on
Department was the lack of adequate                          Early Childhood, Youth and Families, Committee
management information and delivery systems.                 on Education and the Workforce, the Inspector
The systems are not integrated, do not share a               General provided testimony regarding our audit
common systems architecture, and do not                      of the funding formula for special education.
provide the timely, accurate and complete data               During the hearing, the Inspector General
needed to manage effectively the SFA programs                stressed OIG’s recommenda-tion to change the
and a total grant and loan portfolio of over $120            current use of child counts for allocating federal
billion.                                                     funds to states under the Individuals with
The Inspector General further told the sub-                  Disabilities Education Act, Part B, Section 611 to
committee that problems in the SFA programs                  a system based on objective data—namely,
have stemmed from the basic structural design of             population-weighted for poverty levels. It is our
the programs and the lack of specificity in the              contention that this is a fairer, simpler and less
authorizing statute; poor design and opera-                  burdensome method of allocating special
                                                             education funds.
For more detailed information on these testimonies, see Abstract 3, "Congressional Testimony."



                                 AUDIT QUALITY INITIATIVES

Our audit quality efforts this period were designed both to improve the quality of audits of ED programs
and to improve education programs and student performance through better use of audits, monitoring and
technical assistance. The results of our efforts are highlighted below and presented in greater detail in
Abstract 1, “Significant Audits and Audit-Related Activities.”




                                                     < 5 =
Cooperative Audit Resolution and Oversight Initiative
As reported in previous Semiannual Reports, we have been working with an intradepartmental team on
a wide-ranging project known as the Cooperative Audit Resolution and Oversight Initiative, or CAROI.
Other offices participating in the CAROI initiative include the Office of Elementary and Secondary
Education, the Office of Vocational and Adult Education, the Office of the General Counsel, and the Office
of the Chief Financial Officer.

CAROI team accomplishments                                     The CAROI team was also involved in the De-
                                                               partment's Data Coordination group. The Data
The CAROI team met with officials from state
                                                               Coordination group is considering more effective
and local education agencies to discuss admin-
                                                               and efficient approaches to data collection,
istrative issues and questions regarding federal
                                                               coordination and usage.         For additional
funds and flexibility under IASA. The CAROI
                                                               information on the CAROI team's activities and
team and ED program officials are compiling the
                                                               accomplishments, see Abstract 1, “Significant
questions and answers from these discussions for
                                                               Audits and Audit-Related Activities”.
national distribution.

Audit quality and publications and projects
We issued two audit guides during the reporting period on attestation engagements applicable to FFELP
lenders and third-party servicers, and began an audit quality project for work performed for proprietary
schools by certified public accountants (CPAs).

Compliance Audits (Attestation                                 Agreed-Upon      Procedures    Guide
Engagements) for Lenders and Lender                            (Attestation Engagement) Exceptional
Servicers Participating in the FFELP                           Performance Status for FFELP at
The guide, which superseded the March 1995                     Participating Lenders and Servicers
lender audit guide, was issued in December                     This guide, issued in February 1997, is to be used
1996. It is effective immediately for lender                   by the practitioner to perform agreed-upon
servicers and is effective for lenders’ fiscal years           procedures relating to management's assertion
ending on or after December 31, 1996. This                     about its compliance performance percentage
guide must be used by all lenders or servicers                 with respect to converting loans to repayment,
that participate in or administer any aspect of the            collecting delinquent loans, and requirements for
FFELP, with two exceptions:                                    timely claim-filing relating to the FFELP.

1)   lenders or servicers that may be covered                  Audit quality project underway
     under the Single Audit Act of 1984, the
                                                               This period we also initiated an audit-quality
     Single Audit Act Amendments of 1996, and
                                                               project focusing on the work of CPAs who audit
     Office of Management and Budget (OMB)
                                                               proprietary schools.       The project involves
     Circular A-128, "Audits of State and Local
                                                               reviewing the working papers of CPAs who
     Governments"; and
                                                               perform a significant number of these audits to
2)   lenders or servicers satisfying the audit                 determine if the work completed meets the
     requirement with an audit in accordance                   requirements of Government Auditing Stand-
     with OMB Circular A-133, "Audits of In-                   ards, Statements on Standards for Attestation
     stitutions of Higher Education and Other                  Engagements No. 3, and the June 1995 SFA
     Nonprofit Institutions."                                  Audit Guide. We expect to report the results of
                                                               this project in the next reporting period.




                                                       < 6 =
                        P.L. 95-452 REPORTING REQUIREMENTS


SECTIONS 5(a)(1) and 5(a)(2)                Significant Problems, Abuses and Deficiencies
• Significant Audits and Audit-related Activities . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 8
• Significant Prosecutive Actions Resulting from OIG Investigations . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 21

SECTION 5(a)(3) Recommendations Described in Previous Semiannual Reports on
                     Which Corrective Action Has Not Been Completed . . . . . . . . . . . . . . . . . . . . 34

SECTION 5(a)(4) Matters Referred to Prosecutive Authorities . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 42

SECTIONS 5(a)(5) and 6(b)(2)                Summary of Instances Where Information Was Refused
                                             or Not Provided*

SECTION 5(a)(6) Listing of Audit Reports
• ED/OIG Reports on Education Department Programs and Activities . . . . . . . . . . . . . . . . . . . . . . . . . . . . 36

SECTION 5(a)(7) Summary of Significant Audits
• Significant Audits and Audit-related Activities . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 8

SECTION 5(a)(8) Audit Reports Containing Questioned Costs
• Inspector General Issued Reports with Questioned Costs . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 38

SECTION 5(a)(9) Audit Reports Containing Recommendations That Funds Be Put to
                      Better Use
• Inspector General Issued Reports with Recommendations for Better Use of Funds . . . . . . . . . . . . . . . . . 39

SECTION 5(a)(10)               Summary of Unresolved Audit Reports Issued Prior to the Beginning
                                of the Reporting Period
• Unresolved Reports Issued Prior to April 1, 1996 . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 40

SECTION 5(a)(11)               Significant Revised Management Decisions*

SECTION 5(a)(12)               Significant Management Decisions with Which OIG Disagreed*




                                                                                                     *We have no instances to report.


                                                                   < 7 =
                                                        Abstract 1

                                    SIGNIFICANT AUDITS AND
                                   AUDIT-RELATED ACTIVITIES
                                     (October 1, 1996 – March 31, 1997)


                         NOTE: The amounts reported by auditors for the reports described below
                        are subject to further review and final determination by Department officials.




                     ’ Student Financial Assistance Programs ’
                               Accuracy of Student Aid Awards Can Be Improved
                                      by Obtaining Income Data from the
                                           Internal Revenue Service
                                                ACN 11-50001    January 29, 1997

Our review found that, for award year 1995-96, at least 102,000 students were overawarded approximately $109 million
in federal Pell grants because they either failed to report or underreported their income on their student aid applications.
Although ED requires institutions to verify key eligibility information reported by selected students, the process cannot detect
students who intentionally underreport their income and provide false documentation.
We also found that almost 1,200 students improved their Pell Grant eligibility by falsely claiming to be veterans, thereby
receiving over $1.9 million in Pell grants which they were not entitled to receive.
We recommended that the Office of Postsecondary Education (OPE) verify applicant-reported income against Internal
Revenue Service computer records and initiate a data matching agreement with the Department of Veterans Affairs to verify
the veteran status of individuals who claim to be veterans.

                                                        Q      Q      Q

                                      Impact of Ability-to-Benefit Provision on
                                    Student Loan Default and Graduation Rates
                                                  09-53002   December 5, 1996

We issued a memorandum to the Assistant Secretary for Postsecondary Education transmitting information derived from our
analysis of loan default rates and graduation rates for students who enrolled in selected proprietary schools under the ability-
to-benefit (ATB) provision. Our analysis showed that the loan default rate for students who attended ATB schools was twice
that of students who attended non-ATB schools, and that the rate jumped once schools began admitting ATB students. We
also found that students with high school credentials who attended ATB schools had a loan default rate that was 75% higher
than the rate for students with high school credentials who attended non-ATB schools.
We offered several suggestions for the Department's consideration to address the issues identified in our report.

                                                        Q      Q      Q




                                                             < 8 =
                                                                                           SIGNIFICANT AUDIT ACTIVITIES



                                                      Q       Q     Q

                                          Review of Accrediting Agencies'
                                         Monitoring of Member Institutions
                                              ACN 06-50001    February 14, 1997

Our review found that accrediting agencies could strengthen their role as gatekeepers of the student financial assistance
programs if their on-site monitoring of member institutions was improved. We found that on-site visits by some of the six
agencies reviewed were not always effective because they were infrequent, of short duration, and did not always disclose
existing problems at institutions.
We recommended that the Department provide additional guidance to accrediting agencies to improve the effectiveness of
their on-site visits, and that more frequent and extensive on-site visits be performed at high-risk institutions. We also
recommended that the Department develop procedures to ensure that accrediting agencies are notified of serious deficiencies
disclosed in program reviews, audits, and other oversight activities.
The Department concurred with our recommendations, although it did not always agree with our conclusions. The
Department's response identified actions already taken to address the recommendations, as well as additional actions planned.

                                                      Q       Q     Q

                            The California Student Aid Commission Should Return
                              About $5 Million to Guaranty Loan Reserve Fund
                                             That It Overcharged
                                               ACN 09-60003   December 6, 1996

Our review found that the California Student Aid Commission (CSAC) had not corrected past overcharges to the FFEL
program that resulted in improper disbursements from the Guaranty Loan Reserve Fund. Information developed through
CSAC's 1995 workload study disclosed that CSAC had significantly overcharged the Guaranty Loan Reserve Fund for
operational costs that benefited the CAL-Grant and other state programs. We estimate that overcharges were about $2.7
million in fiscal year 1994-95 and about $2.3 million in fiscal year 1993-94.
We recommended that OPE require CSAC to reimburse the Guaranty Loan Reserve Fund for these funds. CSAC officials
concurred with our finding and agreed to reimburse the Guaranty Loan Reserve Fund for the overcharges.

                                                      Q       Q     Q

                        Review of Selected Aspects of the Kentucky Higher Education
                           Assistance Authority's Administration of The Federal
                                      Family Education Loan Program
                                              ACN 04-60147    February 18, 1997

The audit disclosed that between June 1993 and October 1995, the Kentucky Higher Education Assistance Authority
(KHEAA) reported to ED payoffs from Federal Consolidated Loans (FCLs) as collections from borrowers. This reporting
method resulted in KHEAA receiving 30 or 27 percent of the payoffs, which is more than the maximum 18.5 percent allowed
for collection costs.
In November 1995, KHEAA started properly reporting the FCL payoffs. However, collection costs were not assessed on
all loans and KHEAA retained the full 18.5 percent on these loans. As a result, KHEAA received $1,263,251 in excess
post-default collection costs to which it was not entitled. We recommended that OPE instruct KHEAA to:
<     refund $1,263,251 of excess collection costs retained as a result of FCL payoffs;




                                                          < 9 =
SIGNIFICANT AUDIT ACTIVITIES



<     assess collection costs of up to 18.5 percent of loan principal and accrued interest on all defaulted loan accounts prior
      to certifying a consolidation payoff amount; and
<     report all assessed collection costs on Attachment A of ED Form 1189, "Suggested Format for Reporting Defaulted
      Consolidation Loan Payoffs."
KHEAA officials disagreed with the finding because they believe that the report is based on a misreading of the Higher
Education Act and regulations.

                                                       Q      Q      Q

                      Close-out Audit of the Delaware Higher Education Loan Program
                             for the Period July 1, 1996 thru September 30, 1996
                                               ACN 03-60022   February 28, 1997

Our review found that the Delaware Higher Education Commission/Delaware Higher Education Loan Program
(DHEC/DHELP) had not repaid $304,415 in federal advances that were to have been repaid in fiscal years 1988 and 1989.
We recommended that ED ensure that:
<     all receivables and payables are properly recorded prior to the transfer of the reserve fund;
<     arrangements have been made to repay the $304,415 in federal advances due to ED; and
<     arrangements have been made to repay $139,273 which DHEC/DHELP has agreed to repay as a result of a prior audit.
We also recommended that ED ensure that :
<     furniture and equipment purchased mostly with federal funds at a cost of $32,479 is accounted for, or disposed of in
      a manner acceptable to ED; and
<     a final accounting is made for the $200,000 which DHEC/DHELP is being allowed to retain for final closing costs.

                                                       Q      Q      Q

                      Roxbury Community College Disbursed $2.2 Million to Students
                      Enrolled in an Ineligible English as a Second Language Program
                                               ACN 01-50091    October 29, 1996

Our audit disclosed that Roxbury Community College, Roxbury Crossing, Massachusetts, improperly disbursed $2.2 million
in SFA funds to students attending an ineligible English as a second language (ESL) program during the period July 1, 1993
through June 30, 1995. Roxbury classified these students as ESL majors on school transcripts but contends the students were
liberal-arts majors. Evidence gathered clearly demonstrates that the majority of students enrolled for the sole purpose of
taking ESL courses.
We recommended that Roxbury repay the $2.2 million and identify all Title IV funds disbursed to ineligible students for the
1992/93, 1994/95 (because the audit scope does not include new students enrolled in 1994/95) and 1995/96 award years.

                                                       Q      Q      Q




                                                           < 10 =
                                                                                          SIGNIFICANT AUDIT ACTIVITIES



                                                      Q       Q     Q

                   Close-out Audit of the Title IV Student Financial Assistance Programs
                           Administered by the Chicago Institute of Technology
                                               ACN 05-40001    October 8, 1996

Our close-out audit of Chicago Institute of Technology (CIT), Chicago, Illinois, was initiated to determine whether CIT was
in compliance with applicable laws and regulations governing the operation of the SFA programs. Our purpose was also
to determine whether CIT was entitled to the advances and student loan proceeds it had received and the reimbursement for
claims it submitted for the period July 1, 1988 through June 30, 1991.
Our review determined that CIT did not administer the SFA programs according to applicable laws and regulations, and
identified about $10.1 million of unearned SFA funds. We found that CIT disbursed funds on behalf of students who did
not attend the school or were otherwise not eligible for assistance. Accordingly, CIT is not entitled to receive payment for
$1,320,054 in SFA reimbursement claims that it submitted to the Department of Education.
We recommended that ED seek to recover the unearned balance of $8,759,385 ($10,079,439 less $1,320,05) received by
CIT.

                                                      Q       Q     Q

                  Audit of Selected Aspects of the Title IV Programs Administered by
             Houston Community College System During July 1, 1992 through June 30, 1995
                                              ACN 06-50013    November 25, 1996

Our audit at Houston Community College System, Houston, Texas, disclosed deficiencies in the college's administration of
Title IV funds for students enrolled in its aviation maintenance technology program. We found that the college awarded
subsidized Stafford loans based on an academic year of 900 clock hours although it had defined the program's academic year
as 1,680 hours. In addition, some students were disbursed second-year loan proceeds even though they had not successfully
completed their first academic year. As a result, about $210,000 in excess loan funds was disbursed to students enrolled
during the period audited.
We also found that the college did not always properly compute or make pro rata refunds for students who withdrew during
the period January 1, 1993 through June 30, 1995. As a result, the college improperly retained about $7,800 in SFA funds.
We recommended that the college:
<     purchase from current loan holders the $210,000 in loan funds inappropriately disbursed to the students;
<     reimburse ED for the interest and special allowances paid on the excess loan funds;
<     consider a more centralized approach for the financial aid process whereby packaging and review are performed on
      an overall college basis rather than at the individual campuses;
<     refund the $7,800 in SFA funds owed for those students who withdrew from the program prior to completing the
      course; and
<     establish appropriate procedures to ensure that refunds are properly computed and paid in accordance with program
      regulations.

                                                      Q       Q     Q




                                                          < 11 =
SIGNIFICANT AUDIT ACTIVITIES



                                                      Q       Q       Q

                                  Radcliffe College Needs Minor Improvements
                           in its Administration of the Federal Direct Loan Program
                                             ACN 01-60005     November 26, 1996

Our audit of Radcliffe College, Cambridge, Massachusetts, identified the following weaknesses:
<     Some promissory notes had the wrong loan identification numbers.
<     Some students studying abroad were incorrectly identified as having withdrawn.
<     Access to the student data bases needed further restrictions.
<     Written policies and procedures needed to be developed for the Direct Loan program.
The school has taken actions or has planned actions that generally should correct the cited conditions. However, the report
recommends additional measures that Radcliffe should take to improve its administration of the Direct Loan program.

                                                      Q       Q       Q

                                         Audit of the Direct Loan Program
                                        Administered by the Burdett School
                                               ACN 01-60006    March 24, 1997

Our audit found that Burdett School, a second-year Direct Loan program participant located in Boston, Massachusetts,
initially had some difficulties in complying with all program requirements. However, the school did demonstrate substantial
progress during 1996 and was addressing most shortcomings. The audit noted that the school:
<     input incorrect school code data on 36 promissory notes;
<     did not return excess cash within three days nor report the cash draws on EDExpress in a timely fashion;
<     did not report the correct disbursement dates to the servicer;
<     needed to strengthen computer system controls;
<     needed to develop written policies and procedures for the Direct Loan program;
<     did not have a quality assurance program in place;
<     did not properly process adjustments and cancellations, thus causing its Direct Loan cash balance to be overstated and
      the borrowers’ accounts at the servicer to be misstated;
<     had credit balances on its student accounts for longer than the 21 days allowed; and
<     needed to follow up on reconciliation problems more expeditiously.
The school has taken or planned actions that generally should correct the cited conditions. However, the report recommends
additional measures that Burdett should take to improve its administration of the program.

                                                      Q       Q       Q




                                                          < 12 =
                                                                                         SIGNIFICANT AUDIT ACTIVITIES



                                                      Q        Q     Q

                               Audit of the Direct Loan Program Administered by
                                             Fitchburg State College
                                                ACN 01-60007   February 6, 1997

Our audit disclosed of Fitchburg State College (FSC)'s administration of the Direct Loan program identified some
weaknesses related to:
<     incorrect reporting of student status changes disbursement dates and adjustment/cancellation dates to the servicer;
<     timely submission of refunds;
<     lack of restriction to software access;
<     lack of written policies and procedures; and
<     need for the computer system to provide pertinent data on student accounts
Based on our observations, FSC encountered difficulties because its computer system was outdated. FSC agreed with some
of our findings and has already taken action on many of our recommendations.

                                                      Q        Q     Q

                            Audit of the Direct Loan Program Administered by the
                               Philadelphia College of Pharmacy and Science
                                                ACN 03-60008   October 25, 1996

Our audit of the Philadelphia College of Pharmacy and Science's (PCPS), Philadelphia, Pennsylvania, administration of the
Direct Loan program identified the following weaknesses.
<     PCPS was not always correctly reporting student enrollment status. Of 12 students tested with a change in enrollment
      status, 2 had an enrollment status that differed from that on the servicer system.
<     PCPS's records were not always consistent or accurate and did not always provide for a clear audit trail.
<     PCPS did not have written policies or procedures for administering the Direct Loan program.
We recommended that PCPS:
<     review its records and its internal Student Status Confirmation Report (SSCR) program specifications for extracting
      student data to ensure that correct enrollment status has been and will be reported for each student;
<     review its records to determine whether any additional discrepancies exist among student loan balances and, if so,
      make the appropriate corrections;
<     reconcile student account, loan origination and general ledger disbursement data; and
<     develop written policies and procedures for administering the Direct Loan program.
PCPS concurred with our findings and recommendations and has provided a corrective action plan addressing each issue.

                                                      Q        Q     Q




                                                          < 13 =
SIGNIFICANT AUDIT ACTIVITIES



                                                     Q      Q      Q

                     Audit of the Direct Loan Program Administered by CHI Institute
                                             ACN 03-60010   November 19, 1996

Our audit of the administration of the Direct Loan program by CHI Institute (CHI), Southampton, Pennsylvania, identified
the following weaknesses.
<     CHI did not always properly report student enrollment status changes. Of the 20 students tested with a change in
      enrollment status, 4 had an enrollment status that differed from that on the servicer system.
<     CHI did not establish a system of quality assurance with regard to its administration of the Direct Loan program.
<     CHI did not have written policies or procedures for administering the Direct Loan pro
We recommended that CHI:
<     review its records and ensure correct enrollment status data has been reported for each student;
<     provide for a program of quality assurance; and
<     develop written policies and procedures for administering the Direct Loan program.
CHI concurred with our findings and recommendations and has provided a corrective action plan addressing each issue.

                                                     Q      Q      Q

                      Audit of the Direct Loan Program Administered by Kean College
                                              ACN 03-60020 February 28, 1997

Our audit of Kean College’s (Kean) administration of the Direct Loan program identified the following weaknesses.
<     Kean was not always correctly reporting student enrollment status changes.
<     Subsequent to the audit period, Kean maintained an excess cash balance.
<     Kean was not always maintaining and reporting accurate student loan information.
<     Kean was not always transmitting and submitting for reconciliation, loan disbursements and adjustments in a timely
      manner.
We recommended that Kean:
<     review its records and ensure that correct enrollment status data has been reported for each student, and that staff
      involved in the Student Status Confirmation Report process are properly trained;
<     ensure that corrections are made for errors disclosed, and reimburse the Department for costs incurred in making
      excess funds available to the school:
<     review its records and immediately make any necessary corrections, and periodically reconcile its student account and
      loan origination data;
<     report and submit promptly for reconciliation, all transactions to the Department’s servicer; and
<     improve its program for quality assurance to reduce inefficiencies in program administration.

                                                     Q      Q      Q




                                                         < 14 =
                                                                                          SIGNIFICANT AUDIT ACTIVITIES



                                                      Q       Q     Q

                               Audit of the Direct Loan Program Administered by
                                     University of Alabama—Birmingham
                                               ACN 04-60150   January 24, 1997

The audit identified weaknesses related to the university's import of loan records from its mainframe system into EDExpress,
and EDExpress data security.
The auditors recommended that OPE instruct the institution to:
<     perform quarterly reconciliations of disbursement data of its mainframe and EDExpress to ensure the accuracy and
      completeness of loan data reported to the Loan Origination Center; and

<     establish a new password for the EDExpress default user ID that would be known only to those individuals granted
      appropriate security clearance to access all functions of the software.
In its response, the institution concurred with the audit results and stated that it has implemented the recommendations to
correct the weaknesses identified in the report.

                                                      Q       Q     Q

                                Earlham College—Richmond, Indiana
              Audit of Administration of the William D. Ford Federal Direct Loan Program
                                               ACN 05-60013   October 29, 1996

Our audit found that records in the Direct Loan data bases maintained by Earlham College do not always agree with the
records in the Direct Loan data base maintained by the Direct Loan servicer, Computer Data Systems, Inc., for students who
withdraw. Earlham College does not maintain records to support specific student status changes it reported to the servicer.
We also found that Earlham College cannot ensure that it properly records program transactions and protects the Direct Loan
data bases because administrative controls over the Direct Loan program are inadequate. As a result, Earlham College's
accounting records and Direct Loan data bases include inaccurate information. In addition, the lack of adequate security
controls could result in unauthorized access and/or tampering with the data bases.
We recommmended that OPE instruct Earlham College to:
<     establish and implement notification procedures to ensure and document that it reports student status changes to the
      servicer accurately and timely; and
<     strengthen administrative controls.

                                                      Q       Q     Q

                                 Joliet Junior College—Joliet, Illinois
              Audit of Administration of the William D. Ford Federal Direct Loan Program
                                               ACN 05-60018   January 10, 1997

Our review found that Joliet Junior College, Joliet, Illinois, generally administered the Direct Loan program and accounted
for and expended Direct Loan funds in accordance with applicable program requirements. We did, however, identify
weaknesses related to:
<     reporting of student status changes;
<     reconciliation of data bases;
<     internal controls; and




                                                          < 15 =
SIGNIFICANT AUDIT ACTIVITIES



<     computer security.
We recommended that OPE instruct Joliet to:
<     establish and implement procedures for notifying the Direct Loan servicer, Computer Data Systems, Inc., of student
      status changes;
<     establish and implement procedures to ensure that reconciliations are completed in a timely manner;
<     establish and implement adequate internal controls to ensure that all program transactions are correctly recorded in
      a timely manner; and
<     develop, distribute and implement written computer security policies and procedures.

                                                     Q       Q     Q

                            Audit of the Direct Loan Program Administered by the
                                      Court Reporting Institute of Dallas
                                              ACN 06-60009   January 21, 1997

We conducted an audit of the Court Reporting Institute of Dallas (CRID), Dallas, Texas, to determine whether it had
administered the Direct Loan program in accordance with applicable program requirements, including the proper accounting
for and expending of federal funds. We concluded that the school’s policies and procedures generally provided an adequate
level of assurance that it complied with program requirements.
We found three deficiencies which did not have a significant impact on the administration of the program.

                                                     Q       Q     Q

                            Audit of the Direct Loan Program Administered by the
                              University of Texas Medical Branch—Galveston
                                              ACN 06-60011   February 6, 1997

Our review disclosed that the University of Texas Medical Branch—Galveston (UTMB) generally complied with Direct
Loan program requirements. We identified three minor deficiencies, as follows:
<     The account that maintains UTMB’s Direct Loan program funds did not include “Federal Funds” in its name, and
      UTMB had not notified the bank that this account contained federal funds. When we made UTMB aware of this issue
      during our visit, UTMB prepared a letter to the bank to make the bank aware that federal funds will be deposited into
      this account.
<     Our review of 50 student loan files disclosed that the actual disbursement dates per the Loan Origination Records
      (LOR) and student accounts did not match for 48 of the 50 student loans tested. The disbursement dates provided to
      the servicer were one to four days earlier than the actual dates the funds were delivered to the students.
<     Three reconciliations were not timely during 1995-96, one due to software problems at the servicer and two due to
      school delays. Because of problems with the Windows-based version of EDExpress and the installation by UTMB,
      no reconciliations have been done for 1996-97.
We recommended procedural changes to address the identified deficiencies.

                                                     Q       Q     Q




                                                         < 16 =
                                                                                           SIGNIFICANT AUDIT ACTIVITIES



                                                       Q        Q       Q

                             Topeka Technical College, Direct Loan Program Audit
                                                ACN: 07-60008       March 28, 1997

Our audit of the administration of the Direct Loan program by Topeka Technical College (TTC), Topeka, Kansas, identified
some weaknesses related to:
<     the reconciliation process;
<     discrepancies between EDExpress (the Department’s Direct Loan software) and student accounts;
<     lack of electronic student status confirmation reports;
<     system controls; and
<     timely submissions of refunds.

TTC concurred with all of the findings and recommendations cited in the report and stated that it has taken appropriate action
to implement necessary changes to address the findings.

                                                       Q        Q       Q

                               Audit of the Direct Loan Program Administered by
                               Academy of Art College, San Francisco, California
                                               ACN 09-60006     December 9, 1996

We conducted an audit of the Academy of Art College, San Francisco, California, to determine whether it had administered
the Direct Loan program in accordance with applicable program requirements, including the proper accounting for and
expending of federal funds. Our substantive tests of the various areas reviewed did not identify any significant problems.
However, we noted a weakness in the internal controls relative to the school's general security measures with regard to
EDExpress software, data files and related equipment.
In its response to our draft report, the Academy detailed the specific actions the school has taken to correct the cited
weakness in its system. The specific actions, as presented in the school's response, should correct the problems noted in our
review.

                                                       Q        Q       Q

                               Audit of the Direct Loan Program Administered by
                                             Marymount University
                                              ACN 17-60004      December 27, 1996

Our review at Marymount University, Arlington, Virginia, identified several audit issues related to Marymount's third-party
servicer, Datatel's mainframe system Colleague, which generates and tracks loan data; and EdTech's PC-based system
FEEDS, which transmits loan data and tracks status flags. We found that:
<     communication between the two systems did not work as designed, resulting in the transmission of corrupted data to
      the Department's servicer;
<     attempts to correct the data and reconcile with the Department's servicer were hampered by reports from FEEDS that
      contained insufficient information; and
<     because of a change in procedure—from manual submittal of SSCR data to electronic submittal of the data— the
      registrar's office did not always input a status change date into Colleague, resulting in inaccurate dates in the SSCR
      and the disbursement of funds to students who were no longer in attendance. Fortunately, these disbursements were
      subsequently corrected and accurate data was maintained, at times by manual intervention, in the student accounts
      office.




                                                           < 17 =
SIGNIFICANT AUDIT ACTIVITIES




We recommended that the Department:
<     continue to provide technical assistance to Marymount and its third-party servicers to ensure the integrity of Direct
      Loan data; and
<     require Marymount to correct all inaccurate Direct Loan data reported by their third-party servicers.




      ’ Elementary, Secondary and Other Education Programs ’

                       The Foundation for Children with AIDS, Inc. Had Few Controls
                                 Over Allocating Costs to Federal Grants
                                                ACN 01-60251 March 27, 1997

Our review found that the Foundation for Children with AIDS, Roxbury, Massachusetts, did not have an accounting system
that accurately allocated salaries and wages to ED’s grants. Because the Foundation inappropriately used budgeted figures
to charge individual grants, we could not determine whether $429,027 in salaries was charged to the correct grants.
Although the salary charged to grants equaled the total time worked, the Foundation’s timesheets did not support the time
worked on each individual grant.
Since the grants in question have been terminated, we determined that it would not be practical for us to establish harm and
concluded that no further action is required at this time. However, in the future, before making awards to the Foundation,
the Department should verify that the Foundation has in fact implemented an adequate accounting system to insure accurate
allocation of costs to individual grants.

                                                      Q      Q     Q

                 Coordination and Collaboration Within the Office of Special Education
              and Rehabilitative Services to Better Serve Customers and Manage Programs
                                                ACN 03-50201 March 27, 1997

We performed an audit to assess the efforts of the Office of Special Education and Rehabilitative Services (OSERS) toward
coordination and collaboration among OSERS's three organizational components (the Office of Special Education Programs,
the Rehabilitation Services Administration, and the National Institute for Disability and Rehabilitation Research); OSERS's
organizational change initiatives; and OSERS's collection and use of data. We found that OSERS had made some
organizational changes, and undertaken actions to foster coordination and collaboration and improved collection and use of
data. However, we noted some remaining barriers to achieving coordination and collaboration, and actions that should be
taken to improve the collection and use of data.
To address the barriers and further enhance OSERS's ability to achieve its goals, we recommended that OSERS:
<     assess coordination and collaboration efforts in the performance evaluation systems for managers and staff;
<     review periodically the decision to maintain three distinct components within OSERS;
<     develop a plan to address the loss of resources in the regional offices of the Rehabilitative Services Administration;
<     develop a strategy for addressing duplicative planning and research functions within OSERS; and
<     develop a strategic information plan.



                                                      Q      Q     Q




                                                          < 18 =
                                                                                             SIGNIFICANT AUDIT ACTIVITIES



                                                        Q      Q      Q

                              Review of the Cooperative Agreement for the
              National Center for Adult Literacy Awarded to the University of Pennsylvania
                        for the Period November 1, 1992 through March 31, 1996
                                                ACN 03-60006    January 28, 1996

Our review found that the University of Pennsylvania:
<     did not have a control system in effect to ensure adequate safeguards to prevent the theft of equipment and supplies
      purchased with federal funds; and
<     failed to submit the annual financial status reports required within 90 days of the budget periods ending October 31,
      1992, 1993 and 1994.
We recommended that the Department require the National Center for Adult Literacy to develop procedures to ensure that
security systems protecting federal property are functional.

                                                        Q      Q      Q

                    Audit of the Talent Search Program at the Community and Economic
                                Development Association of Cook County, Inc.
                                             in Chicago, Illinois
                                                ACN 05-60005   November 1, 1996

Our review disclosed that the Community and Economic Development Association (CEDA) did not have adequate evidence
to support that it provided services to the required number of participants, based on the grant funds expended, in the 1993/94
and 1994/95 grant years. We also found that records were not maintained for each participant to document the services
provided, basis for eligibility and needs assessment, and that adequate staff were not available to ensure that approved grant
program objectives were met.
We recommended that ED instruct CEDA to refund $130,840 to the Department; develop and implement policies and
procedures to ensure that it maintains a file for each participant which adequately documents the services it provided, the
basis for its determination of eligibility, and its needs assessment; and ensure that adequate staff are available to meet the
program objectives.




                                ’ Departmental Management ’

                                     Security Review of EDCAPS’
                     UNIX Operating System and Oracle Database Management System
                                                 ACN S17-70001 March 31, 1997

As part of our continuing work to assist ED in its development of the Education Department Central Automated Processing
System (EDCAPS), we conducted a security review of the UNIX operating system and Oracle database management system.
The objective of the review was to provide the EDCAPS development team with an independent assessment of security over
critical system processes. Detailed testing of system security tables identified a number of security exposures and limitations.
We recommended system enhancements for each exposure that the EDCAPS team can use to improve system controls.

                                                        Q      Q      Q




                                                            < 19 =
SIGNIFICANT AUDIT ACTIVITIES



                             Cooperative Audit Resolution and Oversight Initiative
As reported in previous Semiannual Reports, we have been working on an intra-departmental team on a wide-ranging
project known as the Cooperative Audit Resolution and Oversight Initiative, or CAROI. The goal is to improve education
programs and student performance at state and local levels through better use of audits, monitoring and technical assistance.
During the next 12 months, CAROI will be concentrating on institutionalizing the process within the Department.
The following are the team's accomplishments during the reporting period.

                                #1: CREATE AND MAINTAIN DIALOGUE WITH STATES
The CAROI team met with officials from state and local education agencies (SEAs and LEAs) to discuss administrative
issues and questions surrounding Title XIV flexibility provisions and schoolwides under under IASA. The CAROI team
and ED program officers are compiling the questions and answers from these discussions for national distribution. Lack of
guidance on these issues has caused some LEAs and SEAs to not use the flexibility provisions provided in the law because
of concern about audit exceptions. This guidance will assist SEAs and LEAs in implementing the flexibility provisions.
The guidance will also assist auditors in providing criteria when auditing an SEA’s or LEA’s use of the provisions.
The CAROI team made presentations at each of three regional Improving America’s Schools Conferences, which are
sponsored by the Department. The team also addressed the National Title I Conference, sponsored by the National
Association of State Title I Directors, regarding the IASA compliance supplement issued last June, the time- distribution
model developed as a result of the first Cooperative Resolution pilot with Florida. The team also presented and discussed
a preliminary draft question-and-answer document on the Title XIV flexibility and schoolwides with Conference participants.

                #2: WORK WITH STATES TO RESOLVE OPEN AUDITS OR AUDITS UNDER APPEAL
During this period, CAROI finished the second Cooperative Audit Resolution pilot with the State of Washington. An
agreement between Washington and the Department was signed in early April. This agreement is unique because one
agreement resolves issues from two years of audits involving three entities within the State of Washington. Because the
Department has received a number of inquiries and requests from other states to be included in future cooperative
resolutions, during the next 12 months, CAROI will be concentrating on institutionalizing the processes within the
Department.

                                      #3: IMPROVE THE SINGLE AUDIT PROCESS
This period CAROI began discussions with a state auditor on a pilot project under provisions of the Single Audit
Amendments. The goal of the pilot project would be a comprehensive report on how federal programs are managed at the
local level. At present, the Department receives little information from the single audits that are conducted at most LEAs.
These audits would give federal program managers information on how federal programs operate at the local level.

                      #4: COORDINATE AUDITS, MONITORING, AND TECHNICAL ASSISTANCE
The CAROI team is working with the Department in its deliberations, planning of and participation on integrated reviews
and other state program-monitoring efforts. CAROI members are working with program officials to ensure the link between
audits, monitoring and technical assistance.
The CAROI team is also participating as a member of the Department’s Data Coordination group, which is considering more
effective and efficient approaches to data-collection coordination and usage. CAROI members are working to ensure that
information on oversight activities is available to persons who need it to ensure the efficient and effective use of federal
funds.




                                                         < 20 =
                                                        Abstract 2

                        SIGNIFICANT PROSECUTIVE ACTIONS
                       RESULTING FROM OIG INVESTIGATIONS
                                     (October 1, 1996 – March 31, 1997)




                               ’ School Owners and Officials ’


                                              National Theater of the Deaf
                                                    Chester, Connecticut
                                             CHARLES ROPER, executive director


Charles Roper, former executive director of the National Theater of the Deaf, was charged and pled guilty in federal court
to one count of misapplication of federal funds. The charge relates to Roper’s conversion in 1993 and 1994 of approximately
$105,000 in federal grant funds for his own personal use and the use of others.
The misuse of funds included improper expenditures in the form of cash advances and purchases of clothing, liquor,
vacations and restaurant meals. Roper executed the scheme through the fraudulent use of the Theater’s credit cards and bank
accounts. The National Theater of the Deaf is a non-profit organization receiving funds from ED’s Office of Special
Education and Rehabilitative Services (i.e., Media and Captioning Services for Individuals with Disabilities) for the purpose
of providing a theatrical experience for deaf audiences and for promoting an understanding of deafness.

                                                       Q       Q      Q

                                                IADE American Schools
                                                   Los Angeles, California
                                     SERGIO STOFENMACHER, owner and vice-president
                                        KENNETH WILLIAMS, financial aid director
Sergio Stofenmacher, former owner of IADE American Schools, and Kenneth Williams, IADE's former corporate financial
aid director, were indicted by a federal grand jury on 20 felony counts of conspiracy, embezzlement, money laundering, and
making false statements to a federal agency, allegedly defrauding the Department of Education out of more than $1 million
in Pell Grant funds. A joint investigation by ED/OIG and the Federal Bureau of Investigation (FBI) developed evidence that
Stofenmacher and Williams conspired to operate a scheme to embezzle Pell grants for persons who never attended any
classes, and then attempted to cover up the fact that the pair had illegally taken Pell grants for “phantom” (no-show) students.


As part of the alleged scheme, IADE reportedly purchased millions of dollars in advertising through some of Los Angeles's
premier Spanish-speaking media outlets, encouraging Hispanics to attend IADE-sponsored orientation meetings or free
citizenship classes where attendees were then encouraged to complete applications for student financial aid. IADE processed
the applications and drew down a maximum first disbursement of Pell funds based on the applicants' anticipated enrollment.
IADE failed to refund Pell grants when applicants cancelled their enrollment or failed to attend any classes. In order to take
the second Pell Grant disbursement and preclude the appearance that a refund was due, Stofenmacher and Williams allegedly




                                                           < 21 =
SIGNIFICANT INVESTIGATIONS



caused IADE personnel to input false credit hours for the “phantom” students. In effect, this made it appear that the
“phantom” students graduated when in fact they had never attended a single class. Stofenmacher allegedly deposited the
Pell Grant checks for the “phantom” students into IADE’s operating account and then improperly converted the Pell Grant
funds to his own use and the use of his family. Stofenmacher fled to Argentina following the execution of a search warrant
at the IADE corporate office in March of 1995 by the OIG and the FBI, and remains a fugitive.
IADE operated six campuses and a corporate headquarters in the Los Angeles area, and one campus in Florida. From 1989,
until its failure in March of 1995, IADE received over $57,000,000 in Pell Grant funding.

                                                      Q      Q      Q

                                                Ogalala Lakota College
                                                 Rapid City, South Dakota
                         JOHN A. BAD WOUND, accounting manager and vice president
        ARLYNN E. KNUDSEN, JERRY DEAN GODFREY, MARGARET J. GODFREY, MARGARET MINKO-BAD WOUND
John A. Bad Wound, accounting manager and vice president for business affairs at Ogalala Lakota College, was charged
with Arlynn E. Knudsen, Jerry Dean Godfrey, Margaret J. Godfrey and Margaret Minko-Bad Wound in a 125-count federal
indictment in the Western District of South Dakota, Sioux Falls, South Dakota. The indictment charged the foregoing
individuals with conspiracy, theft, obstruction, theft from a tribal organization, money laundering, transportation of stolen
funds, and structuring.
A joint investigation by ED/OIG, the Interior Department/OIG, the Internal Revenue Service and the FBI developed evidence
that from 1991 to 1994, a total of $2.6 million dollars in federal funds was embezzled from Oglala Lakota College, including
ED funds (i.e., Pell Grant, College Work-Study, Supplemental Educational Opportunity Grant, Endowment Challenge Grant,
College Library Technology & Cooperative Grant, Indian Education Special Programs & Projects, Training Personnel for
the Education of Individuals with Disabilities, Library Literacy, and Student Support Services funds).
The United States Attorney's office, District of South Dakota, has filed a civil complaint seeking the forfeiture of a Black
Hawk, South Dakota residence owned by Arlynn Knudsen. The property is valued at about $107,000 and was offered for
sale for $205,000. The complaint alleges that the property was in part purchased with embezzled federal funds.

                                                      Q      Q      Q


                                                Revell Training Center
                                           Chicago and Melrose Park, Illinois
                                              GEORGE C. TINDALL, owner
                                          CARLETON LEWIS, operations manager


A federal grand jury returned a 15-count indictment against George C. Tindall, owner of Revell Training Center, and
Carleton Lewis, the center's operations manager, alleging a scheme to defraud the Department of Education and banks of
approximately $936,000. As the result of a plea agreement reached with the United States Attorney's office, Tindall has
subsequently pled guilty to one count each of mail fraud and student financial aid fraud.
A joint investigation by ED/OIG and the Postal Inspection Service found evidence that from about July 1990 through April
1992, Tindall and Lewis participated in a scheme to defraud the U.S. Department of Education and two banks. According
to the indictment, Tindall and Lewis caused guaranteed student loan (GSL) and Supplemental Loans for Students (SLS)
checks to be issued for ineligible students, retained and negotiated the checks, and used the money for improper purposes.
Tindall and Lewis allegedly obtained GSL and SLS checks for students who never started the program or withdrew from
the school prior to the receipt and negotiation of the checks, then failed to return GSL and SLS funds for those students. In




                                                          < 22 =
                                                                                             SIGNIFICANT INVESTIGATIONS



addition, Tindall and Lewis allegedly instructed Revell employees not to complete GSL/SLS Notices of Guarantee and
Disclosure Statements, which would have included information about the students' enrollment status showing that the
students had never started classes or had dropped out of the program prior to the receipt of the checks.

                                                      Q      Q      Q

                                           Interamerican Business College
                                      Hato Rey, Arecibo and Humacao, Puerto Rico
                                CRISTINO BURGOS RODRIGUEZ, owner and principal officer
A federal grand jury in the District of Puerto Rico returned a six-felony-count indictment charging Cristino Burgos Rodriguez
with two counts of false statements, three counts of wire fraud and one count of education fraud. A joint investigation by
ED/OIG and the FBI resulted in the indictment, which charged Burgos Rodriguez with illegally obtaining in excess of
$400,000 in Pell Grant funds on behalf of students who had withdrawn from or never attended classes at the Humacao
Branch campus.

                                                      Q      Q      Q

                               Arizona Academy of Medical and Dental Assistants
                                                    Flagstaff, Arizona
                                          DAVID SCHRADER, former owner
                               GERALDINE THOMPSON, former student financial aid director
A federal grand jury in Phoenix, Arizona, charged David Schrader, former owner of the Arizona Academy of Medical and
Dental Assistants, and Geraldine Thompson, the academy's former student financial aid director, in a 32-count indictment.
The indictment charged both Schrader and Thompson with conspiracy; Schrader was also charged with student aid fraud
and wire fraud, and Thompson was charged with a false statement in the certification of a loan application.
A joint OIG/FBI investigation developed evidence that the defendants fraudulently obtained and improperly received more
that $24,000 in Pell grants and loans for students at an ineligible campus and other ineligible students. The defendants also
allegedly used invalid ability-to-benefit procedures.

                                                      Q      Q      Q

                                        WKG-TV Video Electronics College
                                                 Baton Rouge, Louisiana
                                          CHARLES RAYMOND COLEMAN, owner
Charles Raymond Coleman, owner of WKG-TV Video Electronics College, pled guilty to a two-count information charging
him with misapplication of guaranteed student loan funds. A joint investigation by ED/OIG and the FBI found evidence that
Coleman either deposited approximately $20,000 in student loan checks in his personal bank account or endorsed them over
to a car dealership to purchase automobiles. At the time these checks were negotiated, approximately 19 of the school's
students had already withdrawn and were owed a refund. No refunds were ever made.




                                                          < 23 =
SIGNIFICANT INVESTIGATIONS




                                                       Q      Q      Q

                            Jules Hairstylist, Inc., T/A Flair Beauty Institutes,
                     Washington D.C. Beauty Academy and Annapolis Beauty Academy
                                                   Oxon Hill, Maryland
                                           IRVING LAWRENCE BERNFELD, owner
Irving Lawrence Bernfeld, owner of several cosmetology schools in the District of Columbia, Virginia and Maryland, pled
guilty in U.S. District Court, Richmond, Virginia, to one count of mail fraud in connection with a scheme to defraud the Pell
Grant program. Bernfeld owned Jules Hairstylist, Inc., which operated at least five cosmetology schools in the mid-Atlantic
area and had its primary offices in Oxon Hill, Maryland. Carol Sapp, an employee of the school, pled guilty to a one-count
information charging her with mail fraud in connection with her role in the scheme.
A joint OIG/FBI investigation developed evidence that Bernfeld failed to refund Pell Grant funds to ED for approximately
40 students who had withdrawn from classes before completing the course of instruction. To conceal his actions, Bernfeld
allegedly directed his employees to create false documents that overstated the students' attendance to make it appear that the
school did not owe refunds to ED. Sapp, from her home in North Berwick, Maine, identified the students who were due a
tuition refund, calculated how many additional hours needed to be added to the students' records in order to make it appear
that either no refund or a smaller refund was due, and provided Bernfeld with this information. The estimated loss to ED is
approximately $12,000. Sapp and Bernfeld are scheduled for sentencing in April and May 1997, respectively.

                                                       Q      Q      Q

                                                  IKWAI F.O.R.C.E.
                                                Oklahoma City, Oklahoma
                                                 SHIRLEY BROWN, director
Shirley Brown was sentenced in U.S. District Court for the Western District of Oklahoma, Oklahoma City, Oklahoma, to
4 months incarceration, 120 days home detention and 3 years probation, and was ordered to pay $34,718 in restitution to
ED after entering a plea of guilty to a one-count bill of information.
Brown was the director of IKWAI F.O.R.C.E., a Title VII and Indian Education project grantee in Oklahoma. Brown was
charged with making unlawful ATM withdrawals totaling $34,718 from IKWAI's Bank-One Oklahoma federal account.
A joint OIG/FBI investigation disclosed that in 1995, Brown had closed IKWAI F.O.R.C.E. without prior notice to its
employees or ED. Shortly thereafter, Brown allegedly removed all equipment and records to an unknown location. Our
investigation was initiated based on information from the Office of Bilingual Education and Minority Languages Affairs
advising OIG that IKWAI F.O.R.C.E. had closed its doors in December 1994. The grantee's projects were not scheduled
to be completed until June 30, 1995.
By January 9, 1995, IKWAI F.O.R.C.E. had withdrawn its entire allotment of funds for both projects. Of the funds
withdrawn, $187,000 is either unaccounted for and/or unearned. Brown admitted that she made more than $34,718 in ATM
cash withdrawals for her own personal use from IKWAI F.O.R.C.E.'s Bank-One Oklahoma City Federal account.

                                                       Q      Q      Q




                                                           < 24 =
                                                                                              SIGNIFICANT INVESTIGATIONS



                                                       Q       Q      Q

                                           Priscilla's Professional Services
                                                  Los Angeles, California
                               PRISCILLA ANN HAMILTON, A.K.A. PRISCILLA PINSON, owner
                          with DEBRA LORRAINE BRADFORD, VALERIE RENEE GREEN, LASHAWN RENEE LUTCHER,
                                            JABALI ABAYOMI OLIVER and BEATRICE SCOTT

A dozen people were charged in Federal District Court, Central District of California, for their role in a massive tax-fraud
and student-loan-fraud scheme that allegedly operated out of a Los Angeles storefront and caused at least $1 million in losses.
Priscilla Ann Hamilton, the owner of Priscilla’s Professional Services, is accused of orchestrating the two major fraud
schemes.
An intensive multi-agency investigation uncovered evidence that Hamilton and others under her direction bribed a Social
Security Administration employee in order to obtain Social Security numbers (SSNs). The SSNs were then used to complete
tax returns and federal Parental Loans for Undergraduate Students (PLUS) applications. The scheme involved using the
fraudulently obtained SSN’s to complete and submit PLUS loan applications on behalf of individuals who were not attending
the college.
The ring used the school codes from the University of Southern California, Grambling State University, the University of
Houston, and many other well known universities, for the processing of student loans. Using the SSN’s and school codes,
the ring filed for about 29 PLUS loans. The loan proceeds were then mailed to Hamilton’s place of business and other “drop
boxes” throughout Los Angeles.
To date, six defendants have pled guilty to various charges for their role in the fraud scheme. Six others have been arrested
and are pending trial.




                                  ’ Other Investigative Cases ’

                                                   Robert Elwin Goelz
                                APPRENTICESHIP TRAINING PROGRAM COORDINATOR
                                           Atlantic Vocational Technical Center
                                                  Coconut Creek, Florida
Robert Elwin Goelz, former Apprenticeship Training Program coordinator and member of the Local Union 675 Operating
Engineers, Broward County, Florida, pled guilty in the Southern District of Florida to two counts of theft or embezzlement
from employment and training funds. The Apprenticeship Program, which is used to recruit union members, is run by the
Local 675 and the Broward County School Board. The Department of Education provides federal monies to the school
board, part of which cover the overhead costs of running the program. Continued funding of the program was based on the
apprentices' maintaining adequate attendance.
Investigation disclosed several ghost students as well as additional students with excessive absences. Goelz falsified
attendance records of apprentices to show them in attendance when they were in fact absent. Goelz engaged in the
falsification in order to keep the program and his coordinator position funded. This case was worked jointly by ED/OIG and
the U.S. Department of Labor.

                                                       Q       Q      Q




                                                           < 25 =
SIGNIFICANT INVESTIGATIONS



                                                       Q      Q      Q

                                                    John Waldon, Jr.
                                    FORMER DIRECTOR AND FINANCIAL AID OFFICER
                                           Thomas Serra School of Hair Design
                                                Philadelphia, Pennsylvania
John P. Waldon, Jr., pled guilty to one count of bank fraud and one count of criminal forfeiture after an OIG investigation
found that he had completed a student loan application falsely certifying that he was a student. Waldon subsequently
negotiated a $2,466 federal student loan by forging the school owner’s endorsement on two loan disbursement checks.
Waldon was sentenced to one day of incarceration and supervised probation, fined $200 and ordered to pay restitution
totaling $2,376.

                                                       Q      Q      Q

                                                    Deborah Conrad
                                        TREASURER AND FINANCIAL AID OFFICER
                                National Association of Veterans Programs Administrators
                                                      Clarkson College
                                                     Omaha, Nebraska
As the result of a joint FBI/OIG investigation, Deborah E. Conrad was indicted by a federal grand jury in the District of
Nebraska, on five counts of mail fraud, interstate transportation of falsely made and forged securities, student loan fraud and
wire fraud. According to the indictment, Conrad, while serving as treasurer of the National Association of Veterans Program
Administrators (NAVPA), improperly spent approximately $72,000 in NAVPA funds on personal purchases. The
indictment alleged that Conrad issued NAVPA checks bearing forged signatures and prepared falsified treasurer’s reports
that failed to disclose the improper expenditures. NAVPA receives its funding primarily from membership dues and revenue
generated by various NAVPA workshops. The dues and workshop fees are paid primarily out of Veterans Education
Outreach program funds provided to postsecondary institutions by ED.
The indictment also alleged that Conrad, while serving as the director of financial aid at Clarkson College in Omaha,
Nebraska, and Iowa Western Community College in Council Bluffs, Iowa, fraudulently received approximately $25,000 in
federally guaranteed student loan funds. The indictment alleged that, among other things, Conrad submitted falsified SFA
applications misrepresenting her enrollment status and eligibility to receive student loan funds. Conrad has pled not guilty
and is awaiting trial.

                                                       Q      Q      Q

                                                    Lamar S. Adams
                                                       Houston, Texas
Lamar S. Adams was indicted by the grand jury for the Southern District of Texas, Houston Division, Houston, Texas, on
five counts of mail fraud, five counts of student loan fraud, and one count of wire fraud. The total value of the violations
contained in the indictment is approximately $70,000. A joint OIG/FBI investigation developed evidence that, during the
period from August 1992 through May 1995, Adams submitted seven fraudulent PLUS loan applications totaling
approximately $120,000 to Texas Commerce Bank, Enterprise Bank (now Sterling Bank) and Houston National Bank, all
in Houston, Texas. The fraudulent applications contained Adams's deceased father's name and a false SSN in the spaces
reserved for borrower information, and variations of Adams's name and SSN in the student spaces, as well as a falsified name
of the school certifying official.




                                                           < 26 =
                                                                                             SIGNIFICANT INVESTIGATIONS



                                                      Q      Q      Q

                                            Josephine Nkechi Egwuekweh
                                                 Los Angeles, California
Josephine Nkechi Egwuekweh pled guilty to one felony count each of grand theft and perjury at the Municipal Court of Los
Angeles, County of Los Angeles, State of California. An OIG investigation developed evidence that from 1986 to 1992,
Egwuekweh fraudulently obtained a total of $12,966 in federal student financial assistance (SFA) funds from three Los
Angeles County colleges by using variations of her name and date of birth, and false SSNs.
Egwuekweh was previously charged in 1992 in a six-count felony indictment which charged her with three felony counts
of perjury; two felony counts of obtaining money or property by false pretenses; and one count of grand theft. Following the
1992 indictment, Egwuekweh became a fugitive and fraudulently received approximately $7,000 in additional SFA funds
by using different identities. This period, Egwuekweh was arrested by the California Highway Patrol on the outstanding
1992 warrant.
As a condition of the plea agreement, Egwuekweh will serve five years probation and 500 hours of community service; will
make full restitution of all SFA funds; and is to never participate in any Title IV programs—under any name.

                                                      Q      Q      Q

                                 Jacinta Ada Onuoha, A.K.A. Pamela E. Bowers
                                                   Memphis, Tennessee
Jacinta Ada (Joy) Onuoha, a.k.a. Pamela Bowers, was sentenced in Federal District Court, Western District of Tennessee,
to six months of imprisonment and one year of supervised release and was ordered to pay $8,511 in restitution. The
sentencing is a result of Onuoha's prior guilty plea to one count of fraudulent use of a Social Security number, one count of
fraudulent statements in student aid applications, and one count of use of false and fraudulent identification documents. A
joint ED-OIG/Immigration and Naturalization Service/Social Security Administration investigation was initiated based on
information received from Memphis State Technical Institute that Bowers was attempting to enroll in the school and apply
for financial aid using a false SSN. Subsequent investigation revealed that Bowers, using false information, had attended
LeMoyne Owen College and Shelby State Community College. Bowers received financial aid totaling $8,511.

                                                      Q      Q      Q

                                                      Bettie Wesley
                                                   Little Rock, Arkansas
Bettie Wesley, a federal finance officer with the Arkansas State Department of Education, was sentenced to serve 12 months
in prison with 3 years supervised probation and ordered to make restitution of $20,808 and pay a $100 fine. Wesley had
earlier pled to an information in U.S. District Court, Eastern District of Arkansas, charging her with one count of
embezzlement and misuse of public funds.

A joint ED-OIG/FBI investigation was initiated on the basis on information provided by the Arkansas Legislative Joint
Auditors (ALJA). The ALJA did an audit which disclosed evidence that Wesley diverted, embezzled and/or misappropriated
federal funds totaling $76,000. The investigation found evidence that Wesley deposited various federal program funds into
at least eight different suspect bank accounts during the period from September 1992 through May 1995. It was discovered
that the suspect bank accounts belonged to the God’s House of Deliverance (GHOD) and World Wide Services, Inc. Wesley
is a member and past treasurer of GHOD.




                                                          < 27 =
SIGNIFICANT INVESTIGATIONS



To accomplish her scheme, Wesley submitted duplicate legitimate vendor invoices to the State of Arkansas Department of
Education disbursing officer. After the checks were disbursed by the state, Wesley intercepted the checks and deposited
those state checks, plus two federal treasury checks totaling more than $20,000, and various other misdirected checks into
the suspect accounts.

                                                       Q      Q      Q

                                                  Paul Duell, EMPLOYEE
                                          LOUISIANA DEPARTMENT OF EDUCATION
                                               Proprietary Schools Bureau
Paul Duell pled guilty in the Western District of Louisiana, Lafayette, Louisiana, to a one-count criminal information charging
extortion by a public official. A joint ED-OIG/FBI investigation developed evidence, through the use of electronic
surveillance equipment, that in exchange for payment of $5000, Duell offered to perform the following services: a) furnish
the purchasers of the Refrigeration School of New Orleans with a bogus $10,000 surety bond; b) assist in the preparation
and approval of the purchasers’ financial statement; c) assist in increasing the enrollment in the school; d) personally
supervise the school on behalf of the state to prevent regulatory interference.

                                                       Q      Q      Q

                                               Lisa M. Surratt, EMPLOYEE
                                               U.S. Department of Education
                                                      Washington, DC
Former Office of Educational Research and Improvement secretary Lisa M. Surratt was sentenced in D.C. Superior Court
for submitting fraudulent travel vouchers to the Department’s imprest fund cashier. Investigation revealed that Surratt had
submitted 39 fraudulent vouchers that resulted in a total disbursement to her of $2,778.50. Investigation found that Surratt
had forged the names of current and former ED employees on the vouchers as well as the names of contract employees.
Three separate imprest fund cashiers were involved in the processing of these vouchers.
In a plea-bargaining arrangement, Surratt pled guilty to the submission of five of these vouchers. As part of her sentencing
she agreed to resign from the Department effective December 20, 1996; enroll in a court-supervised drug treatment program;
repay the Department $2,598.50; and not seek further federal employment. Surratt was also placed on probation for one
year.

                                                       Q      Q      Q

                                            Shirley M. Dickerson, EMPLOYEE
                                               U.S. Department of Education
                                                      Washington, DC
Shirley M. Dickerson, a former employee of ED’s Office of Vocational and Adult Education, pled guilty to one misdemeanor
count of theft in the District of Columbia, Superior Court. Pursuant to the plea agreement, Dickerson resigned from
employment with ED, agreed to repay $998, and agreed not to seek re-employment with ED in the future. She is also
prohibited from seeking other federal employment for two years.




                                                           < 28 =
                                                                                             SIGNIFICANT INVESTIGATIONS



An OIG investigation found evidence that Dickerson falsified her time-and-attendance records. Analysis of Dickerson’s
time-and-attendance records identified discrepancies between the amounts of leave recorded on the electronic time-and-
attendance reports submitted to the Denver payroll office, and the amounts of leave indicated on the forms filed at the
worksite. Dickerson altered the leave amounts submitted to Denver so that she would not be charged for 89 hours of leave
taken. Dickerson confessed to submitting fraudulent records for three pay periods during FY 1996 resulting in the payment
of federal monies for work not performed.




                    ’ UPDATE on Previously Reported Cases ’

                                           Chicago Institute of Technology
                                                      Chicago, Illinois
                                         EARLE CIAGLIA, president and co-owner
                                       EDWIN CIAGLIA, vice-president and co-owner
                                        DONALD DESMOND, chief financial officer
Edwin Ciaglia, Earle Ciaglia and Donald Desmond, former owners and chief financial officer, respectively, of the Chicago
Institute of Technology (CIT), were sentenced in federal court in the Northern District of Illinois. Earle Ciaglia and Edwin
Ciaglia were each given sentences of 46 months incarceration and 3 years supervised probation and ordered to pay restitution
of $10,000. Donald Desmond was given a sentence of 41 months incarceration and 3 years supervised probation and
ordered to pay restitution of $5,000.
Last period the Ciaglias and Desmond pled guilty to bank fraud and conspiracy to commit bank fraud, SFA fraud, bankruptcy
fraud and wire fraud stemming from a 25-count federal indictment filed in June 1996. The indictment charged that, from
1988 through 1991, the defendants were responsible for the systematic falsification of student academic and financial aid
records to conceal their recruitment, training and retention deficiencies, their failure to make refunds, and their conversion
of unearned federal funds which caused the loss of at least $720,000 to the government. They were also charged with
obtaining bank loans in excess of $300,000 by submitting false and fraudulent loan applications and financial records, and
with engaging in a check-kiting scheme by passing more than 200 bad checks with a face value over $10,000,000, causing
a loss of approximately $500,000 to a Chicago bank. The loan and check-kiting schemes resulted in financial institutions
suffering losses in excess of $825,000. The indictment also charged the individuals with having committed bankruptcy fraud
by submitting fraudulent bankruptcy petitions and by selling pledged CIT assets prior to the filing of the bankruptcy.
(Semiannual Report No. 33, page 16)

                                                       Q      Q      Q

                                     Programming and Systems, Incorporated
                                                      Cleveland, Ohio
                                  IRWIN MAUTNER, chairman and chief executive officer
                                    RONALD SUNDICK, national financial aid director
Irwin Mautner, chairman and chief executive officer of Programming and Systems, Incorporated (PSI), pled guilty in Akron,
Ohio, to a three-felony-count indictment that charged him with mail fraud, conspiracy and making a false statement to the
U.S. Department of Education. Ronald Sundick, corporate national financial aid director of PSI, as part of a plea agreement
with the government, pled guilty to a one-felony count information that charged him with obstruction of a federal audit. On
January 31, 1997, the corporation, PSI, pled guilty to one felony count of mail fraud.




                                                           < 29 =
SIGNIFICANT INVESTIGATIONS




These guilty pleas and plea agreements resulted from a three-count indictment that charged the defendants with engaging
in a scheme to defraud the Department of Education by concealing from PSI’s accrediting agency and other regulatory bodies
the high rate of student withdrawals at PSI schools. The indictment alleged that the defendants engaged in this scheme to
prevent the PSI schools from losing their accreditation and consequently, the schools’ eligibility to receive Pell grants and
federally insured loans. The scheme included the use of improper recruiting practices, ability-to-benefit testing irregularities,
concealment of documents from oversight bodies, and submission of false reports. During the time period charged in the
indictment, the schools received in excess of $140 million of Title IV funds. PSI was a publicly traded corporation that
owned and operated proprietary schools in Ohio, New York, Michigan, Indiana, Florida, North Carolina, Pennsylvania,
Maryland and Washington, D.C. (Semiannual Report No. 33, p. 17)

                                                        Q      Q      Q


                                                    California Institute
                                                   Long Beach, California
                                                 RONALD VAN AVERY, owner
Ronald Van Avery, owner and operator of California Institute (CI), was found guilty by a federal jury in Los Angeles,
California, of five counts of wire fraud and two counts of false statements arising from a scheme that defrauded the
Department of Education of at least $6.3 million. Avery retained guaranteed student loans that were required to be returned
to commercial lenders because the students had not completed their courses of study at CI. Avery misstated CI’s financial
status and performance by causing the preparation of false financial statements that either wholly omitted the refund liabilities
or drastically understated them. Avery fraudulently retained CI’s eligibility with the Department by making false statements
to accreditation commissions, guaranty agencies and CPAs.
According to evidence presented at the trial, Avery recruited students from such locations as homeless shelters, un-
employment offices and public housing projects, then retained the proceeds of the student aid for which they invariably
applied. When students dropped out, Avery kept the loan proceeds which he was required by law to refund. During trial,
nine former students testified that Avery’s actions denied them access to further student aid, tarnished their credit histories,
and caused extreme financial hardship. Avery used the millions of dollars to maintain an expensive and luxurious lifestyle,
purchasing and improving several parcels of real property, purchasing luxury cars, expensive jewelry, vacations, clothing,
and other personal items, and making significant investments. (Semiannual Report No. 30, page 27)

                                                        Q      Q      Q


                                            Northeast Institute of Education
                                                   Scranton, Pennsylvania
                                     GREGORY WALKER, former chief executive officer
Gregory Walker, former chief executive officer of Northeast Institute of Education (NIE), was sentenced in U.S. District
Court, Scranton, Pennsylvania, to 30 months incarceration on each of three felony counts: fraud involving federal education
programs, theft concerning programs receiving federal funds, and bank fraud. The bank-fraud conviction was not directly
related to Walker’s operation of NIE. The sentences are to run concurrently. Following release, Walker will be under
supervised probation for five years.
A joint OIG/FBI investigation determined that Walker and others made false representations to the Department of Education
to enable NIE to become reinstated in the federal SFA programs. That reinstatement followed NIE’s
termination by the Department for failing to fulfill the terms of a settlement agreement with ED. The Department permitted
NIE’s reinstatement on the condition that Walker would no longer be involved with the school’s fiscal and financial affairs.




                                                            < 30 =
                                                                                             SIGNIFICANT INVESTIGATIONS




Investigators determined that Walker never relinquished control of NIE, continuing to sign checks, approve refunds and
exercise substantial control over the fiscal and financial affairs of the school. As a result of the misrepresentations to the
Department, NIE continued to receive SFA funds from March 1994 until March 1996, and in fact received $574,000 of Title
IV funds during this period. Walker pled guilty to obtaining these SFA funds by fraud. The defendant also pled guilty to
misapplying refunds for students who had withdrawn or graduated from the school. Acknowledging Walker's inability to
pay full restitution, the sentencing judge ordered a $30,200 payment on the bank fraud count, and a $150 special assessment.
(Semiannual Report No. 33, page 17)




                                                       Q      Q      Q

                                                       Valerie Carr
                                                     SAWYER COLLEGE
                                                    Hammond, Indiana
Valerie Carr, an employee at Sawyer College, Hammond, Indiana, was sentenced to 18 months of incarceration and ordered
to pay restitution of $468,770 after being found guilty of one count of embezzlement of student financial aid funds. The
embezzled funds included guarantee student loans totaling $143,460, Pell grants totaling $115,116 and Perkins loans totaling
$34,119. The remaining funds included State of Indiana aid, personal checks, cash, private employer payments and private
scholarships.
Carr, an administrative assistant at Sawyer College, was responsible for processing incoming students, ordering books for
the college, receiving and depositing college funds (including student aid checks) into the school’s operation account, and
maintaining the books and records. Our investigation determined that for approximately two years Carr, without
authorization from the school, cashed checks payable to Sawyer College, including student aid checks, and kept the cash for
her own use. (Semiannual Report No. 33, page 19)

                                                       Q      Q      Q

                                                Lauren Beauty College
                                                      Cuyahoga, Ohio
                                      STEPHANIE SMIGELSKI, former president/owner
Stephanie Smigelski was sentenced in the Cuyahoga County Court of Common Pleas, Cleveland, Ohio, to 90 days probation
and ordered to pay restitution of $21,000. An OIG investigation determined that Smigelski received Pell Grant funds for
students who dropped out of school and had not earned the required hours to qualify for a second Pell Grant disbursement.
Smigelski hired a financial aid servicer to handle most of the school’s financial aid activities. Smigelski was responsible
for reporting the hours completed by the students to the servicer before any disbursements were made. Examination of the
school’s attendance records and the hours reported to the Ohio State Board of Cosmetology determined that Smigelski
reported inflated hours to the servicer for students who dropped out of school. The OIG identified 20 students who had not
completed the required number of hours necessary to receive the second Pell Grant disbursement which the defendant
obtained on their behalf. (Semiannual Report No. 33, page 27, and Semiannual Report No. 32, page 17)

                                                       Q      Q      Q




                                                           < 31 =
SIGNIFICANT INVESTIGATIONS



                                                       Q      Q      Q

                                                    Elissa R. Kurland
                                                    Fort Myers, Florida
Elissa R. Kurland, attorney and former treasurer of the Florida Future Business Leaders of America (FBLA)/Phi Beta Lamda
Association and Foundation, Inc., was sentenced in U.S. District Court for the Southern District of Florida to 18 months
incarceration, followed by a supervised probation period of 3 years. Kurland was also ordered to immediately start making
full restitution of the balance owed to FBLA for $69,176.
The OIG investigation disclosed that Kurland embezzled a total of $110,637 from FBLA through a scheme of altering payee
names on FBLA checks to pay for personal expenses (i.e, travel to a beauty parlor in New York and the purchase of jewelry).
In some instances, Kurland deposited the checks into her personal account. As the treasurer for FBLA, Kurland had access
to all the foundation’s bank accounts, and she performed monthly reconciliations. FBLA receives funding from ED through
the Carl D. Perkins Vocational Act.
As a result of her conviction, Kurland surrendered her license to practice law in the state of Florida. A referral for
disbarment will be made to the Florida Board of Accountancy. This was a joint investigation by ED/OIG, IRS and the
Florida Department of Law Enforcement.

                                                       Q      Q      Q

                                               Pat Goins of Bossier, Inc.
                                                   Shreveport, Louisiana
Pat Goins of Bossier, Inc. (PGB), Shreveport, Louisiana, was sentenced in U.S. District Court, Western District of Louisiana,
to three years probation, fined $210,000 with $200,000 suspended and ordered to pay restitution of $30,094 and a $200
special assessment fee.
Our investigation disclosed that Pat Goins directed or caused PGB officials to alter, or to make false statements relative to,
students' dependency status, income and/or ability-to-benefit status. We also found that eight students were coached by a
PGB employee who provided the ability-to-benefit test answers prior to the independent tester giving the test. Five students,
after prompting from a PGB employee, provided false information regarding marital status or dependency status, resulting
in a lower calculation of annual income and increasing the amount of student financial aid funds they were eligible to receive.
(Semiannual Report No. 33, page 18)

                                                       Q      Q      Q

                                          United Academies of Cosmetology
                                                      Chicago, Illinois
Five former employees of the United Academies of Cosmetology schools pled guilty in U.S. District Court, Northern District
of Illinois. Each former employee admitted to participating in a scheme to defraud the government by falsifying school
records and forging signatures of “students” at the schools. Their sentencings were postponed until after the upcoming trial
of the owners and general manager.
Rosa Mercado, former financial aid assistant at Riviera Beauty School, and Gwendolyn Kirk, Myron Petty, Theresa Dobyne
and Brad Jones, former admissions recruiters at Riviera Beauty School, each pled guilty to one count of SFA fraud, part of
an earlier 54-count indictment involving Mid-America Beauty School and Riviera Beauty School.
(Semiannual Report No. 33, page 19)




                                                           < 32 =
                                                        Abstract 3

                        INITIATIVES CONDUCTED IN RESPONSE
                            TO CONGRESSIONAL REQUEST
                                     (October 1, 1996 – March 31, 1997)



                      Reauthorization of the Individuals with Disabilities Education Act
                                                      February 4, 1997
At the request of the House Subcommittee on Early Childhood, Youth and Families, Committee on Education and the
Workforce, the Inspector General provided testimony regarding our audit of the funding formula for special education.
During the hearing, the Inspector General stressed OIG’s recommendation to change the current use of child counts for
allocating federal funds to states under the Individuals with Disabilities Education Act (IDEA), Part B, Section 611, to a
system based on objective data—namely, population weighted for poverty levels. It is our contention that this proposal is
a fairer, simpler, and less burdensome method of allocating special education funds.

                                                        Q     Q      Q

                       Department of Education Management and Programmatic Issues
                                                       March 20, 1997
The Inspector General testified before the House Subcommittee on Human Resources, Committee on Government Reform
and Oversight, regarding management and programmatic issues at the Department of Education and areas of fraud, waste
and abuse identified in the Department’s programs and operations. Focusing on the student financial assistance programs,
the Inspector General told the subcommittee that one of the most significant problems facing the Department was the lack
of adequate management information and delivery systems. The systems are not integrated, do not share a common systems
architecture, and do not provide the timely, accurate and complete data needed to manage effectively the SFA programs and
a total grant and loan portfolio of over $120 billion.
The Inspector General further told the Subcommittee that the problems in the SFA programs have stemmed from the basic
structural design of the programs and the lack of specificity in the authorizing statute; poor design and operations of the
delivery systems; and inadequate gatekeeping, monitoring and oversight of program participants. The Inspector General
also highlighted his June 1996 testimony before this same Subcommittee, stressing the need for measurable performance
standards. OIG audits and investigations of non-degree-granting, vocational trade schools have long demonstrated the
inadequacy of accrediting agencies to assure the quality of training at those schools that participate in the SFA programs.
The Inspector General once again stressed the need for Congress to legislate numerical, absolute and verifiable standards
which those schools would have to meet in order to be eligible to participate in the SFA programs.
Finally, the Inspector General addressed areas of fraud, waste and abuse, including recommendations to match income
reported on applications for financial assistance to adjusted gross income reported to the Internal Revenue Service; develop
an outcome-based method of compensation for lenders to avoid due diligence fraud; and require school owners to report and
certify their refund liabilities on at least an annual basis so that the Department can identify schools that are delinquent and
the extent of the liabilities.




                                                            <33=
                      RECOMMENDATIONS DESCRIBED IN PREVIOUS SEMIANNUAL REPORTS
                         ON WHICH CORRECTIVE ACTION HAS NOT BEEN COMPLETED
Section 5(a)(3) of the Inspector General Act requires a listing of each report resolved before the commencement of the reporting period for which management
has not completed corrective action. The reports listed below are OIG internal and nationwide audit reports and management improvement reports.
                                                                                                                                            TOTAL              SEMIANNUAL
REPORT                                                                                                                      DATE          MONETARY             REPORT
NUMBER      AUDITEE/TITLE                                                                                                   RESOLVED       FINDINGS            NO. PAGE

OFFICE OF ELEMENTARY AND SECONDARY EDUCATION

11-20202    CHANGES TO IMPACT AID PROGRAMS' SITE REVIEW PROCESS SHOULD IMPROVE EFFICIENCY AND                               09/30/94        4,382,000          26   85
            ASSURE BETTER USE OF PROGRAM FUNDS


OFFICE OF POSTSECONDARY EDUCATION

11-90050     ACCREDITING AGENCY RECOGNITION PROCESS DOES NOT SERVE AS AN EFFECTIVE CONTROL IN                               06/30/91            *              22   5
              DETERMINING THE RELIABILITY OF AGENCIES THAT ACCREDIT NUMEROUS PROBLEM SCHOOLS
93-02** ED SHOULD PROHIBIT CONFLICTS OF INTEREST BETWEEN GUARANTY AGENCIES AND AFFILIATED                                   06/30/93            *              26   86
              ORGANIZATIONS
11-00010     OFFICE OF STUDENT FINANCIAL ASSISTANCE DID NOT ASSURE THAT ALL INSTITUTIONS SUBMITTED                          09/30/93        33,800,000         24   63
              AUDIT REPORTS OR THAT IT RECOVERED ALL MISSPENT FUNDS
11-90040     THE INSTITUTIONAL ELIGIBILITY PROCESS DOES NOT PROVIDE ADEQUATE ASSURANCE THAT ONLY                            09/30/93         482,000           22   6
              ELIGIBLE SCHOOLS PARTICIPATE IN THE TITLE IV PROGRAMS
92-05** ED NEEDS TO STRENGTHEN STUDENT LOAN CURE PROCEDURES                                                                 09/30/93       154,000,000         24   12
92-10** STRICTER STANDARDS NEEDED FOR GRANTING OF FORBEARANCES                                                              09/30/93            *              25   3
92-13** ED NEEDS TO CHANGE THE LEGISLATIVE DEFINITION OF LOANS IN REPAYMENT                                                 01/31/94            *              25   5
93-07** THE SECRETARY'S DEFAULT REDUCTION INITIATIVE—AN ALTERNATIVE APPROACH TO IMPLEMENTING                                03/31/94            *              27   18
              SANCTIONS
05-20075     EFFECTIVENESS OF THE REGIONAL INSTITUTIONAL REVIEW BRANCHES' MONITORING OF INSTITUTIONS                        08/31/94            *              28   19
              PARTICIPATING IN THE STUDENT FINANCIAL ASSISTANCE PROGRAMS
17-30302     FINANCIAL AUDIT: FEDERAL FAMILY EDUCATION LOAN PROGRAM'S FINANCIAL STATEMENTS FOR                              10/31/94            *              29   16
              FISCAL YEARS 1993 AND 1992
11-30001     INCONSISTENT INSTITUTIONAL PELL GRANT REPORTING RESULTS IN SIGNIFICANT EXPENDITURE                             07/31/95            *              29   15
              DISCREPANCIES
04-40100     HELPING TO ASSURE EQUALIZED EDUCATIONAL OPPORTUNITIES WITH HEA, TITLE III INSTITUTIONAL                        08/31/95            *              31   11
              AID FUNDS—GLOBAL PERFORMANCE MEASURES NEEDED
17-30305     ANNUAL INTEREST GRANTS: IMPROVING THE PROCESS FOR PAYING THE REMAINING GRANTS                                  02/29/96        5,025,272          31   14
11-40001     FOLLOW-UP REVIEW ON SELECTED GATEKEEPING OPERATIONS                                                            02/29/96            *              31   13
05-40005     ED NEEDS TO CONSIDER IMPLEMENTING CHANGES FOR MONITORING LENDERS AND SERVICERS                                 03/31/96            *              32   10
05-50008     EFFECTIVENESS AND EFFICIENCY OF DEBT COLLECTION SERVICE—AREAS RELATED TO INTERNAL                              04/30/96            *              32   12
              OPERATIONS
04-38000     LESSONS LEARNED FROM RTC’S HANDLING OF FEDERAL FAMILY EDUCATION LOANS ...                                      08/31/96            *              32   9
04-60001     PROCESS ENHANCEMENTS IN THE HEA, TITLE III, INSTITUTIONAL AID PROGRAM WOULD INCREASE
             PROGRAM EFFICIENCY, DESPITE LIMITED RESOURCES                                                                  08/31/96            *              32   9
06-30004     MANAGING FOR RESULTS: REVIEW OF PERFORMANCE-BASED SYSTEMS AT SELECTED ACCREDITING                              08/31/96            *              31   7
              AGENCIES
07-48051     CLOSED SCHOOLS: $2.4 BILLION UNAUDITED                                                                         06/30/96            *              31   13
                                                                                                                   TOTAL      SEMIANNUAL
REPORT                                                                                                DATE       MONETARY     REPORT
NUMBER       AUDITEE/TITLE                                                                            RESOLVED    FINDINGS    NO. PAGE

OFFICE OF THE CHIEF FINANCIAL OFFICER

11-00333     GREATER EMPHASIS NEEDED TO DEOBLIGATE UNEXPENDED CONTRACT FUNDS AND CLOSE OUT            03/31/94    7,500,000   26   17
             CONTRACTS ON TIME
11-48302     THE DEPARTMENT COULD REDUCE ITS AIR FARE TRAVEL COSTS IF MORE TRAVELERS TOOK ADVANTAGE   01/31/96       *        31   33
             OF DISCOUNT AIR FARES
17-40302     FINANCIAL STATEMENT AUDIT: U.S. DEPARTMENT OF EDUCATION FEDERAL FAMILY EDUCATION LOAN    08/31/95       *        31   12
             PROGRAM FOR THE YEARS ENDED SEPTEMBER 30, 1994 AND 1993
17-48320     FINANCIAL STATEMENT AUDIT OF THE U.S. DEPARTMENT OF EDUCATION WILLIAM D. FORD FEDERAL    09/30/95       *        30   20
             DIRECT LOAN PROGRAM




* Non-monetary findings only
** Management improvement report
           ED/OIG REPORTS ON EDUCATION DEPARTMENT PROGRAMS AND ACTIVITIES
                                                           (October 1, 1996 - March 31, 1997)


Section 5(a)(6) of the Inspector General Act requires a listing of each report completed by OIG during the reporting period. A total of 28 reports
were completed by ED/OIG auditors. These reports are listed below.
                                                                                                                   QUESTIONED
                                                                                                                       COSTS
                                                                                                                     (excluding        UNSUPPORTED     BETTER USE
ACN            AUDITEE/REPORT TITLE                                                       STATE     ISSUED          unsupported)          COSTS         OF FUNDS

OFFICE OF POSTSECONDARY EDUCATION

01-50091       ROXBURY COMMUNITY COLLEGE DISBURSED $2.2 MILLION TO STUDENTS                  MA      OCT-96          $2,253,564
                ENROLLED IN AN INELIGIBLE ENGLISH AS A SECOND LANGUAGE PROGRAM
01-60005       RADCLIFFE COLLEGE’S ADMINISTRATION OF THE FEDERAL DIRECT LOAN                 MA      NOV-96                   *
                PROGRAM NEEDS MINOR IMPROVEMENTS
01-60006       AUDIT OF THE DIRECT LOAN PROGRAM ADMINISTERED BY THE                          MA      MAR-97
                 BURDETT SCHOOL
01-60007       AUDIT OF THE DIRECT LOAN PROGRAM ADMINISTERED BY FITCHBURG                    MA       FEB-97                  *
                STATE COLLEGE
03-60008        AUDIT OF THE DIRECT LOAN PROGRAM ADMINISTERED BY THE                         PA      OCT-96                   *
                 PHILADELPHIA COLLEGE OF PHARMACY & SCIENCE
03-60010       AUDIT OF THE DIRECT LOAN PROGRAM ADMINISTERED BY CHI INSTITUTE                PA      NOV-96                    *
03-60020       AUDIT OF THE DIRECT LOAN PROGRAM ADMINISTERED BY KEAN COLLEGE                 NJ      MAR-97                    *
03-60022       CLOSE-OUT AUDIT OF THE DELAWARE HIGHER EDUCATION LOAN PROGRAM                 DE      FEB-97              304,415
04-60147       REVIEW OF SELECTED ASPECTS OF THE KENTUCKY HIGHER EDUCATION                   KY      FEB-97            1,263,251
                 ASSISTANCE AUTHORITY’S ADMINISTRATION OF THE FEDERAL FAMILY
                 EDUCATION LOAN PROGRAM
04-60150       AUDIT OF THE DIRECT LOAN PROGRAM ADMINISTERED BY UNIVERSITY OF                AL       JAN-97                  *
                 ALABAMA - BIRMINGHAM
05-40001       CLOSE-OUT AUDIT OF THE CHICAGO INSTITUTE OF TECHNOLOGY                        IL      OCT-96            3,807,539           6,271,900
05-60013       AUDIT OF ADMINISTRATION OF THE WILLIAM D. FORD FEDERAL DIRECT                 IN      OCT-96                    *
                LOAN PROGRAM FOR EARLHAM COLLEGE
05-60018       JOLIET JUNIOR COLLEGE’S ADMINISTRATION OF THE WILLIAM D. FORD                 IL       JAN-97                  *
                FEDERAL DIRECT LOAN PROGRAM
06-50001       REVIEW OF ACCREDITING AGECNIES’ MONITORING OF MEMBER INSTITUTIONS             DC      FEB-97                   *
06-50013       AUDIT OF SELECTED ASPECTS OF THE TITLE IV PROGRAMS ADMINISTERED               TX      NOV-96             218,153
                 BY THE HOUSTON COMMUNITY COLLEGE SYSTEM DURING JULY 1, 1992
                 THROUGH JUNE 30, 1995
06-60009       AUDIT OF THE DIRECT LOAN PROGRAM ADMINISTERED BY THE COURT                    TX       JAN-97                  *
                 REPORTING INSTITUTE OF DALLAS
06-60011       AUDIT OF THE DIRECT LOAN PROGRAM ADMINISTERED BY THE UNIVERSITY               TX       FEB-97                  *
                 OF TEXAS MEDICAL BRANCH - GALVESTON
07-60008       TOPEKA TECHNICAL COLLEGE                                                      KS      MAR-97                    *
09-60003       THE CALIFORNIA STUDENT AID COMMISSION SHOULD RETURN ABOUT $5                  CA      DEC-96            4,965,913
                 MILLION THAT IT OVERCHARGED TO THE GUARANTY LOAN RESERVE FUND
09-60006       AUDIT OF THE DIRECT LOAN PROGRAM ADMINISTERED BY THE ACADEMY                  CA      DEC-96                   *
                 OF ART COLLEGE, SAN FRANCISCO, CALIFORNIA
                                                                                                   QUESTIONED
                                                                                                       COSTS
                                                                                                     (excluding    UNSUPPORTED   BETTER USE
ACN                   AUDITEE/REPORT TITLE                                       STATE   ISSUED     unsupported)      COSTS       OF FUNDS


OFFICE OF POSTSECONDARY EDUCATION (cont.)

11-50001         ACCURACY OF STUDENT AID AWARDS CAN BE IMPROVED BY OBTAINING       DC     JAN-97                                   109,000,000
                  INCOME DATA FROM THE INTERNAL REVENUE SERVICE
17-60004         AUDIT OF THE DIRECT LOAN PROGRAM ADMINISTERED BY MARYMOUNT        DC    DEC-96              *
                  UNIVERSITY


OFFICE OF SPECIAL EDUCATION AND REHABILITATIVE SERVICES

01-60251         THE FOUNDATION FOR CHILDREN WITH AIDS                             MA    MAR-97              *
03-50201         COORDINATION AND COLLABORATION WITHIN OSERS TO BETTER SERVE       DC    MAR-97              *
                  CUSTOMERS AND MANAGE PROGRAMS
07-60002         MISSOURI DIVISION OF VOCATIONAL REHABILITATION:                   MO    DEC-96              *
                  SUCCESSFULLY ADMINISTERING TRAINING SERVICES


OFFICE OF THE CHIEF FINANCIAL OFFICER

05-60005         AUDIT OF THE TALENT SEARCH PROGRAM AT THE COMMUNITY AND           IL    NOV-96         130,840
                  ECONOMIC DEVELOPMENT ASSOCIATION OF COOK COUNTY, INC.
                  IN CHICAGO, ILLINOIS
06-50005         RESULT OF CONTRACT CLOSE-OUT AUDIT, ARKANSAS                      AR     FEB-97                        17,301
                  DEPARTMENT OF EDUCATION


OFFICE OF EDUCATIONAL RESEARCH AND IMPROVEMENT

03-60006         REVIEW OF THE COOPERATIVE AGREEMENT FOR THE NATIONAL CENTER       PA    JAN-97              *
                  FOR ADULT LITERACY AWARDED TO THE UNIVERSITY OF PENNSYLVANIA
                  FOR THE PERIOD NOVEMBER 1, 1992 THROUGH MARCH 31, 1996




* Non-monetary findings only
                         INSPECTOR GENERAL ISSUED REPORTS
                              WITH QUESTIONED COSTS1




                                                   NUMBER             QUESTIONED            UNSUPPORTED 2

A.       For which no management
         decision has been made by
         the commencement of the
         reporting period (as adjusted)                  64         $ 497,915,715            $ 30,407,101

B.       Which were issued during
         the reporting period                             8              19,232,876                 6,289,201

         Subtotals (A + B)                               72         $ 517,148,591             $ 36,696,302

C.       For which a management
         decision was made during
         the reporting period                            24         $ 192,880,381              $ 6,016,331

         (i) Dollar value of
             disallowed costs                                       $ 88,872,128                $        64,027

         (ii) Dollar value of
              costs not disallowed                                   $     104,008             $ 5,952,304

D. For which no management
   decision has been made by
   the end of the reporting
   period                                                48         $ 324,268,210            $ 30,679,971

E.       For which no management
         decision was made within
         six months of issuance                          40         $ 273,892,616            $ 20,625,472



     1
         None of the audits reported in this table was performed by the Defense Contract Audit Agency.
     2
         Included in questioned costs.

                                                            38
               INSPECTOR GENERAL ISSUED REPORTS WITH
             RECOMMENDATIONS FOR BETTER USE OF FUNDS1



                                                                   NUMBER                   DOLLAR VALUE

A. For which no management
   decision has been made by
   the commencement of the
   reporting period (as adjusted)                                       11                  $ 49,003,000

B. Which were issued during
   the reporting period                                                   1                  109,000,000

             Subtotals (A + B)                                          12                 $ 158,003,000

C. For which a management
   decision was made during
   the reporting period                                                   5                 $ 13,798,000

   (i)       Dollar value of recommendations
             that were agreed to by
             management                                                                       $        —

   (ii)      Dollar value of recommendations
             that were not agreed to
             by management                                                                  $ 13,798,000

D. For which no management
   decision has been made by
   the end of the reporting
   period                                                                 7                $ 144,205,000

E. For which no management
   decision was made within
   six months of issuance                                                 6                 $ 35,205,000


   1
       None of the audits reported in this table was performed by the Defense Contract Audit Agency.

                                                          39
                        UNRESOLVED REPORTS ISSUED PRIOR TO OCTOBER 1, 1996

Section 5(a)(10) of the Inspector General Act requires a listing of each report issued before the commencement of the reporting period for which no
management decision has been made by the end of the reporting period.
                                                                                                           TOTAL                  PROJECTED           SEMIANNUAL
                                                                                          DATE         MONETARY          REASONS MANAGEMENT           REPORT PAGE
NUMBER AUDITEE/TITLE                                                               ST    ISSUED         FINDINGS         OVERDUE   DECISION            NO.   NO.

07-00027   SAINT MARY OF THE PLAINS COLLEGE                                        KS    09/06/90         94,500,000         01            ***        21     6
03-14078   SOJOURNER-DOUGLAS COLLEGE                                               MD    07/05/91            114,206         01            ***        **    --
03-14079   SOJOURNER-DOUGLAS COLLEGE                                               MD    07/05/91            243,300         01            ***        **    --
03-21069   SOJOURNER-DOUGLASS COLLEGE                                              MD    04/22/92             39,354         01            ***        **    --
03-21068   SOJOURNER-DOUGLASS COLLEGE                                              MD    04/24/92            183,920         01            ***        **    --
09-10007   WESTERN TRUCK SCHOOL                                                    CA    09/10/92          8,834,503         01            ***        25    78
07-23545   MISSOURI STATEWIDE                                                      MO    04/01/93          1,048,768         01            ***        **    --
05-20007   AMERICAN CAREER ACADEMY                                                 MI    05/27/93          2,003,658         01            ***        27    17
05-30003   PATRIOT EDUCATION CENTER                                                OH    09/03/93          2,464,884         01            ***        27    17
09-10005   CALIFORNIA STUDENT AID COMMISSION                                       CA    09/10/93         41,100,000         01            ***        27    17
03-20205   INDEPENDENCE CENTER OF NORTHERN VIRGINIA                                VA    09/17/93            173,742         04            ***        **    --
06-10007   AVALON VOCATIONAL TECHNICAL INSTITUTE                                   TX    09/17/93          8,795,000         01            ***        27    17
09-33114   STATE OF CALIFORNIA                                                     CA    12/24/93          4,191,032          01           ***        28    18
07-33123   MISSOURI STATEWIDE                                                      MO    03/07/94            187,530         ***                      **
03-33154   COMMONWEALTH OF PENNSYLVANIA                                            PA    07/05/94         31,656,831         05            ***        29    17
05-30010   NORTHSTAR GUARANTEE INCORPORATED                                        MN    08/16/94            619,287         01            ***        29    31
01-30051   THE STUDENT LOAN CORPORATION MUST IMPROVE ITS CONTROLS                  NY    09/13/94            979,000         01          04/30/97     29    31
            OVER FEDERAL INTEREST BILLING
04-43134   FLORIDA STATEWIDE                                                       FL    12/05/94            615,996          05           ***        **    --
01-46037    COMMONWEALTH OF MASSACHUSETTS                                          MA    02/01/95          2,173,536       01,03,04      08/31/97     **    --
02-56113   VIRGIN ISLANDS DEPARTMENT OF EDUCATION                                  VI    02/17/95         10,375,000          05           ***        30    16
10-43931   STATE OF WASHINGTON                                                     WA    05/30/95             26,657          05           ***        **    --
05-40007   REPORT ON THE TRANSITIONAL GUARANTY AGENCY'S                            MN    06/02/95                  *          01           ***        **    --
            ROLE IN GUARANTY AGENCY TRANSITION
03-47090   COMMONWEALTH OF PENNSYLVANIA                                            PA    07/20/95         50,689,820         05            ***        **    --
04-56619   TRENHOLM STATE TECHNICAL COLLEGE                                        AL    08/23/95            813,824         01            ***        **    --
05-53012   ILLINOIS STATE DEPARTMENT OF REHABILITATION                             IL    09/07/95          5,016,685         03            ***        31    12
09-38259   THE DEPARTMENT SHOULD EVALUATE THE NEED FOR ANNUAL                      CA    09/12/95                  *         01            ***        **    --
             CHILD COUNTS IN THE IMPACT AID PROGRAM
10-53726   STATE OF WASHINGTON                                                     WA    09/29/95            273,259         05            ***        **    --
04-53670   FLORIDA STATEWIDE                                                       FL    10/04/95          2,855,402         05            ***        **    --
02-56225   NEW YORK STATE HIGHER EDUCATION SERVICES CORPORATION                    NY    12/15/95                  *         01          05/31/97     **    --
02-56226   NEW YORK STATE HIGHER EDUCATION SERVICES CORPORATION                    NY    12/15/95                  *         01          05/31/97     **    --
03-56293   STATE SYSTEM OF HIGHER EDUCATION, COMMONWEALTH OF PA                    PA    12/17/95             42,798         01            ***        **    --
07-58051   OPE WAIVERS: THE DEPARTMENT SHOULD ESTABLISH AND FOLLOW                 DC    02/13/96                  *         01            ***        **    --
            A PROCESS
03-50451   INCURRED COST AUDIT OF ASSOCIATE CONSULTANTS, INC.                      DC    02/27/96             20,647         04            ***        **    --
01-33140   STATE OF CONNECTICUT                                                    CT    03/15/96          1,626,972        02,04        06/30/97     **    --
01-46083   STATE OF CONNECTICUT                                                    CT    03/15/96            353,810         01            ***        **    --


                                                                                 40
                                                                                                         TOTAL                PROJECTED    SEMIANNUAL
REPORT                                                                                      DATE      MONETARY       REASONS MANAGEMENT    REPORT PAGE
NUMBER AUDITEE/TITLE                                                                  ST   ISSUED      FINDINGS      OVERDUE   DECISION     NO.   NO.


01-56043     STATE OF NEW HAMPSHIRE                                                   NH   03/15/96        212,086   02,03,04   07/31/97   **    --
05-50009     AUDIT OF UNITED STUDENT AID FUNDS, INC’S. REPORTING OF                   IN   05/08/96     32,090,358      01        ***      33    10
              DEFAULTED FEDERAL FAMILY EDUCATION LOAN PROGRAM
              LOANS CONSOLIDATED UNDER THE FEDERAL CONSOLIDATION
              LOAN PROGRAM
17-60005     IMPREST FUND REVIEW                                                      DC   08/12/96              *     ***                 33    34
05-60003     CANNELLA SCHOOL OF HAIR DESIGN                                           IL   08/16/96      4,408,620     01         ***      33    13
04-50201     THE TENNESSEE DIVISION OF REHABILITATION SERVICES SHOULD                 TN   09/27/96        367,131     ***                 33    8
              IMPROVE THE ADMINISTRATION OF ITS AUTHORITY TO
              ESTABLISH COMMUNITY REHABILITATION PROGRAMS



NOTES
  * Non-monetary findings only
 ** Not individually written up
*** Information not provided by responsible ED component office


REASON CODES FOR REPORTS OVER SIX MONTHS OLD
01 - Administrative delays
02 - Delay in receiving auditee comments or additional information from auditee
03 - Delay in receiving additional information from nonfederal auditor.
04 - Lack of staff
05 - These audits are in the Cooperative Audit Resolution and Oversight Initiative




                                                                                     41
                                                         STATISTICAL SUMMARY
                                                        October 1, 1996 — March 31, 1997




OIG AUDIT REPORTS ISSUED . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 28
– Questioned Costs . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . $12,943,675
– Unsupported Costs . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . $6,289,201
– Recommendations for Better Use of Funds . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . $109,000,000

OIG AUDIT REPORTS RESOLVED BY PROGRAM MANAGERS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 22
– Questioned Costs Sustained. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .$88,656,472
– Unsupported Costs Sustained . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . $9,200
– Additional Disallowances Identified by Program Managers . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . —
– Management Commitment to Better Use of Funds . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . —

NON-FEDERAL AUDIT REPORTS RESOLVED BY PROGRAM MANAGERS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 14
– Questioned Costs Sustained. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . $151,629
– Unsupported Costs Sustained . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . $54,827
– Additional Disallowances Identified by Program Managers . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . $30,541

INVESTIGATIVE CASE ACTIVITY
– Cases Opened . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 83
– Cases Closed . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 74
– Cases Active at End of Period . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 305
– Cases Referred for Prosecution . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 42
  – Accepted . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 36
  – Declined . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 6

INVESTIGATION RESULTS
– Indictments/Informations 1 . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 45
– Convictions/Pleas 2 . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 43
– Fines Ordered . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . $10,800
– Restitutions Ordered 3 . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . $1,268,490
– Restitution Payments Collected4 . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . $1,782,412
– Civil Settlements . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . $166,587
– Seizures . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . $205,000

DEBARMENT/SUSPENSION ACTIVITIES
– OIG Requests for Departmental Action . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 15
– Individuals/Entities Debarred/Suspended . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 6




    1
        Includes 3 actions that were not reported in our last Semiannual Report.
    2
        Includes 6 actions that were not reported in our last Semiannual Report.
    3
        Includes $521,127 not reported in our last Semiannual Report.
    4
        Collected by the Department of Justice.



                                                                                     < 42 =
            GLOSSARY OF ABBREVIATIONS


ACN      audit control number

ATB      ability-to-benefit

CAROI    Cooperative Audit Resolution and Oversight Initiative

CFO      Chief Financial Officer

DOJ      Department of Justice

ED       U.S. Department of Education

EDCAPS   Education Department Central Automated Processing System

ESEA     Elementary and Secondary Education Act

FAFSA    Free Application for Student Aid

FBI      Federal Bureau of Investigation

FFELP    Federal Family Education Loan program

FY       fiscal year

GMRA     Government Management Reform Act

GPRA     Government Performance and Results Act

IDEA     Individuals with Disabilities Education Act

OIG      Office of Inspector General

OMB      Office of Management and Budget



                                   < 43 =
              GLOSSARY OF ABBREVIATIONS
                            (continued)




OPE   Office of Postsecondary Education

SFA   student financial assistance/student aid

ST    state

VA    Department of Veterans Affairs




                               < 44 =
